<html>
<title> - MCKINNEY-VENTO REAUTHORIZATION AND CONSOLIDATION OF HUD'S HOMELESS PROGRAMS</title>
<body><pre>[Senate Hearing 109-872]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-872
 
                   MCKINNEY-VENTO REAUTHORIZATION AND 
                CONSOLIDATION OF HUD'S HOMELESS PROGRAMS 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HOUSING AND TRANSPORTATION

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINATION OF S. 1801, TO AMEND THE MCKINNEY-VENTO HOMELESS ASSISTANCE 
  ACT TO REAUTHORIZE THE ACT, AND PROVIDE FOR CONSOLIDATION OF HUD'S 
                           HOMELESS PROGRAMS

                               __________

                             MARCH 30, 2006

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


   Available at: http: //www.access.gpo.gov /senate /senate05sh.html


39-712 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





























            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

ROBERT F. BENNETT, Utah              PAUL S. SARBANES, Maryland
WAYNE ALLARD, Colorado               CHRISTOPHER J. DODD, Connecticut
MICHAEL B. ENZI, Wyoming             TIM JOHNSON, South Dakota
CHUCK HAGEL, Nebraska                JACK REED, Rhode Island
RICK SANTORUM, Pennsylvania          CHARLES E. SCHUMER, New York
JIM BUNNING, Kentucky                EVAN BAYH, Indiana
MIKE CRAPO, Idaho                    THOMAS R. CARPER, Delaware
JOHN E. SUNUNU, New Hampshire        DEBBIE STABENOW, Michigan
ELIZABETH DOLE, North Carolina       ROBERT MENENDEZ, New Jersey
MEL MARTINEZ, Florida

             Kathleen L. Casey, Staff Director and Counsel

     Steven B. Harris, Democratic Staff Director and Chief Counsel

   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator

                       George E. Whittle, Editor

                                 ______

               Subcommittee on Housing and Transportation

                    WAYNE ALLARD, Colorado, Chairman

                JACK REED, Rhode Island, Ranking Member

RICK SANTORUM, Pennsylvania          DEBBIE STABENOW, Michigan
ELIZABETH DOLE, North Carolina       ROBERT MENENDEZ, New Jersey
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
MEL MARTINEZ, Florida                CHARLES E. SCHUMER, New York
RICHARD C. SHELBY, Alabama

                    Tewana Wilkerson, Staff Director

                                  (ii)



























                            C O N T E N T S

                              ----------                              

                        THURSDAY, MARCH 30, 2006

                                                                   Page

Opening statement of Senator Allard..............................     1

Opening statements, comments, or prepared statements of:
    Senator Reed.................................................     3

                               WITNESSES

Roy A. Bernardi, Deputy Secretary, U.S. Department of Housing and 
  Urban Development..............................................     5
    Prepared statement...........................................    26
    Response to written questions of Senator Shelby..............    48
Philip F. Mangano, Executive Director, U.S. Interagency Council 
  on Homelessness................................................     6
    Prepared statement...........................................    28
    Response to a written question of Senator Reed...............    49
Gail Dorfman, County Commissioner, Hennepin County, MN...........     8
    Prepared statement...........................................    32
Steven R. Berg, Vice President for Programs and Policy, National 
  Alliance to End Homelessness...................................    14
    Prepared statement...........................................    33
Charles W. Gould, National President, Volunteers of America......    16
    Prepared statement...........................................    37
Anthony Love, President/CEO, Coalition for the Homeless of 
  Houston/Harris County, Inc.....................................    17
    Prepared statement...........................................    43
Dennis Patrick Culhane, Ph.D., Professor of Social Welfare Policy 
  and Psychology, University of Pennsylvania.....................    19
    Prepared statement...........................................    44
    Response to written questions of Senator Shelby..............    49

              Additional Material Supplied for the Record

Letter submitted by Ellen Bassuk, MD, President, the National 
  Center on Family Homelessness dated March 28, 2006.............    51
Statement of Martha R. Burt, Ph.D., Principal Research Associate 
  and Director, Social Services Research Program, Urban Institute    54
Statement of Gloria M. Guard, President, People's Emergency 
  Center Philadelphia, PA........................................    69
Statement of Carla Javits, President, Corporation for Supportive 
  Housing........................................................    83
Statement of Amy Knudsen, Interim Director of the Iowa Coalition 
  for Housing & the Homeless.....................................   114
Statement of the National Council of State Housing Agencies......   120

                                 (iii)


                     MCKINNEY-VENTO REAUTHORIZATION

                          AND CONSOLIDATION OF

                        HUD'S HOMELESS PROGRAMS

                              ----------                              


                        THURSDAY, MARCH 30, 2006

                               U.S. Senate,
   Committee on Banking, Housing and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 3:34 p.m., in room SD-538, Dirksen 
Senate Office Building, Senator Wayne Allard, (Chairman of the 
Subcommittee) presiding.

           OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. In brief, I will call the hearing to order.
    I would like to welcome everyone to this hearing of the 
Housing and Transportation Subcommittee hearing on the 
McKinney-Vento Act Reauthorization and Consolidation of HUD's 
homeless programs. I want to thank all of you also for being 
patient while we finished the full Committee action and also 
had a chance to go down to the floor to vote, and I am sure 
that later on, I will be joined by Senator Reed.
    In 1987, Congress passed the Stewart B. McKinney Homeless 
Assistance Act, now known as the McKinney-Vento homeless 
assistance programs. The Act was the first comprehensive law 
addressing the diverse needs of the homeless, including 
programs at the Department of Health and Human Services, the 
Department of Education, the Department of Labor, the 
Department of Agriculture, and the Department of Housing and 
Urban Development.
    Until enactment of this law, the problems confronted by the 
homeless were mainly addressed at the State and local level. 
The McKinney Act represented a consensus that had developed 
that a major Federal commitment was required in order to end 
homelessness. Currently, the Federal Government devotes 
significant resources to the homeless. In fiscal year 2006, 
HUD's homeless grant programs were funded at $1.34 billion.
    Yet, despite the enormous Federal resources directed toward 
homelessness, the problem persists. We need to bring more 
accountability to homeless assistance, increasing funding for 
successful programs and initiatives, and replacing those that 
are ineffective. There seems to be consensus that the McKinney-
Vento bill has been an important tool to help some of society's 
most vulnerable members and that the first step should be 
reauthorization of the Act.
    There also seems to be consensus that the second step 
should be consolidation of the existing programs. I originally 
introduced consolidation legislation in the year 2000, and 
Senator Reed offered a proposal in 2002. HUD has also advocated 
for a consolidated program for several years now.
    While we differed in some of the details, including the 
funding distribution mechanism for a new program, these 
proposals offered consensus on the important starting point of 
consolidation. After extensive discussion, Senator Reed 
introduced Senate bill 1801, the Community Partnership to End 
Homelessness Act, a bill I was pleased to cosponsor. The bill 
will consolidate the existing programs to eliminate 
administrative burdens, multiple applications, and conflicting 
requirements.
    The streamlined approach will combine the efficiencies of a 
block grant with the accountability of a competitive system. 
Localities will submit applications outlining the priority 
projects for their area based on outcomes and results. I am 
especially supportive of approaches such as this one that focus 
on results rather than processes.
    In considering reauthorization of such an important 
program, especially given the scope of the potential changes, I 
believe it is important to solicit a variety of viewpoints. 
Thus, I have convened today's hearing to facilitate that 
discussion. I would like to hear the witnesses' views as to 
what is and is not currently working in the McKinney-Vento 
programs as their suggestions for reauthorization, including 
their comments on Senate bill 1801 or any other reauthorization 
proposal.
    We have an excellent lineup of witnesses today. First, we 
will hear from Roy Bernardi, Deputy Secretary of the Department 
of Housing and Urban Development. In addition to his 
perspective as the second in command at HUD, Secretary Bernardi 
has the added advantage of his service as a mayor.
    He will be followed by Phillip Mangano, who has provided 
excellent leadership for the Interagency Council on 
Homelessness, partnering with cities nationwide in developing 
10-year plans to end homelessness, and I appreciate your 
efforts, Mr. Mangano, with our Denver Mayor, Mayor 
Hickenlooper. He tells me that he felt like his working 
relationship has been just superb, so we appreciate you helping 
us out there.
    Our final witness on the first panel will be Gail Dorfman, 
County Commissioner of Hennepin County, Minnesota. Hennepin 
County has been active on the issue of homeless and on Tuesday 
announced a commission to end homelessness in the country.
    The second panel will begin with Steve Berg, Vice President 
for Programs and Policy at the National Alliance to End 
Homelessness. The Alliance is a national nonprofit organization 
dedicated to addressing the root causes of homelessness.
    Next, we will hear from Charles Gould, who is the National 
President of the Volunteers of America, an organization that 
has been helping people in need for 110 years; Anthony Love, 
President and CEO of the Houston Coalition for the Homeless 
will be able to give a front line perspective on 
reauthorization based on his daily work providing homeless 
assistance. Finally, we will hear from Dennis Culhane of the 
University of Pennsylvania. Dr. Culhane is known nationwide as 
one of the leading experts on homelessness.
    I would like to thank all of our witnesses for being here 
today. Your testimony will be helpful as the Subcommittee moves 
forward with these issues.
    Now, I would like to call on my colleague, Senator Reed 
from Rhode Island, to make an opening statement, and then, we 
will proceed to the panel.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and let me 
thank you not only for holding this hearing on reauthorization 
of the McKinney-Vento Homeless Act but also for your leadership 
in championing Senate bill 1801, the Community Partnership to 
End Homelessness Act. And let me thank the witnesses, all of 
them, for their testimony today. We look forward to it.
    How we deal with homelessness is not just an issue of 
policy. It touches on the values that we cherish as a Nation. 
What do we say to children whose parents cannot afford adequate 
housing? To women in abusive relationships who have to flee and 
find shelter, to veterans who served their country and cannot 
find a home, to the mentally ill, who are challenged in finding 
adequate places to live, if we cannot respond with adequate and 
safe housing?
    This is about values as well as about policy. We have to 
tackle this complex issue. We have learned a great deal since 
the passage of the McKinney-Vento Homeless Assistance Act 20 
years ago.
    For one, we learned that keeping a chronically homeless 
person off the streets saves money. If you look at the medical, 
enforcement, emergency shelter, other expenses that these 
individuals accrue, it is far more cost-effective to find them 
permanent housing. We also know that many people who are 
temporarily homeless often experience homelessness as a result 
of a job loss, a medical crisis, a discharge from a medical 
facility or even a correctional facility. For these people, 
allowing communities more flexibility in trying to help them 
through assistance in paying utility bills, with planning for 
transition is effective and could be more effective.
    We know that. We know that coordinating discharge, as I 
said, from hospitals and from jails makes sense. We know that 
communities are making substantial inroads with limited Federal 
dollars they are receiving. Thanks to many of these programs, 
households that typically lacked housing stability have moved 
into supportive housing environments. Eighty-five percent of 
such households have remained in permanent housing 2 years 
later, thanks to the services they receive, so we know that 
supportive services can make a key difference.
    We know giving communities flexibility will allow them to 
target the populations that need the most assistance to prevent 
family homelessness, provide successful support of housing 
programs, and quickly provide transitions for individuals from 
homelessness to permanent housing. We also know that the HUD 
implementation of the Continuum of Care has stimulated 
increased coordination within communities, better programs, and 
real results.
    As we move forward in this process of reauthorizing 
McKinney-Vento, we are in an unusually strong position not only 
to reauthorize the Act but also to improve it. And we can 
codify the structural improvements that have already been put 
in place by HUD and agencies throughout this country.
    And by asking communities to provide better documentation 
on homelessness, on the steps they are taking to combat it, and 
on the effectiveness of these steps, we increase their ability 
to share information on what works, enhancing the potential for 
future improvements.
    Through a collaborative effort with HUD, the Interagency 
Council on Homelessness, homeless advocates in communities 
throughout the country, and service providers, Senator Allard 
and I and 11 other Senators from both sides of the aisle 
crafted the Community Partnership to End Homelessness Act, S. 
1801, legislation--and the Senator has described it before--
consolidates existing homelessness programs into one program; 
creates a unified, performance-based process of funding that 
would allow more funding to flow to communities that 
demonstrate a commitment to ending homelessness and 
accomplishing the goals they set; focuses public and private 
sector on ending and preventing homelessness, not just simply 
warehousing people time and time again; encourages 
collaboration and planning; and ensures that multiple Federal 
agencies are involved as appropriate for their missions to 
serve homeless people.
    With limited Federal dollars, our legislation promises to 
make significant progress in giving communities the flexibility 
and creativity they need to combat homelessness. Tackling this 
issue along with the issue of affordable housing are of 
paramount importance to the American public. I look forward to 
working with Senator Allard on these goals, as we have worked 
before, and I thank him again for his cooperation and his 
collaboration.
    And Mr. Chairman, I have three letters from homeless 
service providers I would like to put in the record.
    Senator Allard. Without objection.
    Senator Reed. Thank you very much. Again, let me thank you, 
Mr. Chairman, for your leadership on this issue.
    Senator Allard. Thank you.
    I am going to run a pretty tight hearing. The reason for 
that, I have been told that at least on our side, we may have 
votes around 5:00, in which case, we are going to have our 
clock running here. When we get on 5 minutes, I am going to 
start cutting you off, just because I see three witnesses on 
this panel and I have four on the other. And by the time we get 
into some questioning, we are going to eat it up. I would just 
hate to have us break at 5:00, and maybe we have two or three 
votes, and you sit around for an hour, and then, we are back.
    So, I would like to get this wrapped up within the next 
hour and a half if we can. And your full statement is going to 
be made a part of the record as a lot of other information. We 
are not going to get all of our questions presented to you in 
the hearing. I am going to have some that I do not think I will 
be able to ask; same thing with Senator Reed.
    But the way we handle that is we then request the witnesses 
to respond to those questions in writing. So we will give those 
to you, and then, if you can get back to us, to the Committee, 
within 10 days on your responses to that, we will then make 
them part of the record. We will hold the record open that 
long.
    Okay; having shared that good news with everybody, Mr. 
Secretary, we will start with you.

        STATEMENT OF ROY A. BERNARDI, DEPUTY SECRETARY,

        U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Bernardi. Thank you, Mr. Chairman and Ranking Member 
Reed. I will be brief. I will ask and I know that you will 
hopefully allow me to submit my written testimony for the 
record.
    Senator Allard. We will, without objection.
    Mr. Bernardi. Mr. Chairman, it is important to begin by 
thanking you for holding this hearing and recognizing you and 
Ranking Member Reed for your leadership in the fight against 
homelessness. We have been going at this for a number of years.
    Each of you has played a pivotal role in this effort, and 
it is appropriate to acknowledge that your bill, S. 1801, 
introduced last fall, represents a major step forward in the 
effort to consolidate the three Continuum of Care programs and 
codify them in statute to allow far greater flexibility which 
will enable improved performance and effectiveness of the HUD's 
homeless assistance grant programs.
    I am pleased to report that in the House of Representatives 
yesterday, Congressman Rick Renzi introduced the 
Administration's bill. As you know, the Administration's 
proposal to consolidate our three competitive homeless 
assistance programs, our Supportive Housing Program, our 
Continuum of Care, and our single room occupancy Section 8 
program into a single program is aimed at alleviating 
homelessness in this country.
    In our view, consolidation would provide more flexibility 
to localities; devolve grantmaking responsibilities to local 
decisionmaking bodies; fund prevention of homelessness; 
dramatically reduce the time required to distribute the funds 
to the grantees, which right now is a very onerous process; and 
further the Administration's goal to end chronic homelessness.
    These two bills are the culmination of several years of 
hard work and I am proud to say bipartisan good faith work that 
has included input from so many, including some of you who are 
going to be appearing on the next panel.
    Mr. Chairman and Ranking Member Reed, I would be remiss if 
I neglected to recognize two staff members in particular who 
have served each of you with great distinction: Ms. Tawanna 
Wilkerson and Ms. Kara Stein have worked tirelessly with us to 
produce solid legislation that is represented by Senate bill 
1801 and the Renzi bill in the House.
    These bills are very complementary, and while there are 
differences between them, I think the most remarkable feature 
is that there is common ground there to really go ahead and do 
some wonderful things. Both of these bills consolidate the 
three competitive programs into a single program with a single 
match, and both affirm the role of local planning entities to 
provide for more local decisionmaking authority and 
flexibility.
    Both bills would greatly simplify how HUD's resources can 
be used to effectively and efficiently solve homelessness. Both 
bills would greatly compress the time it takes to get Federal 
funds into the hands of grantees and the providers.
    As I mentioned, while the two bills are similar in overall 
design, in a number of areas, there are differences that merit 
our attention. The Administration bill ensures broader 
participation in the Continuum of Care; that is, we feel, 
greater participation by the nongovernmental entities. It 
ensures greater accountability in the expenditure of funds for 
homelessness by each Continuum of Care by requiring each 
Continuum to be a legal entity; focuses more on chronically 
homeless persons living on the streets; provides for renewal of 
all types of projects, including transitional housing; provides 
greater flexibility for the kinds of services needed to solve 
homelessness; provides greater flexibility in using supportive 
program funds to prevent homelessness and we feel better 
targets its permanent housing resources for those who are the 
most vulnerable, the disabled.
    It is my view that if we continue our dialogue and work 
together, we can bring these bills to closure, and in closing, 
I want to thank you for holding this hearing once again; look 
forward to participating and answering your questions.
    Senator Allard. Thank you for your brief testimony.
    Mr. Mangano.

      STATEMENT OF PHILLIP F. MANGANO, EXECUTIVE DIRECTOR

            U.S. INTERAGENCY COUNCIL ON HOMELESSNESS

    Mr. Mangano. Thank you, Chairman Allard and Senator Reed. 
Thank you for your opening statements and for having this 
hearing committed to homelessness.
    Having been committed to the abolition of homelessness for 
the past 20 years, beginning then as a full time, bread line 
volunteer and now as the Executive Director of the U.S. 
Interagency Council on Homelessness, I want to first 
acknowledge the historic and heroic role that countless 
community and faith-based groups have demonstrated on this 
issue. They have been on the front lines and in the forefront 
of response to homelessness in our country for 30 years, and 
the McKinney-Vento resources have been critical in that effort 
for 20 years.
    While I know it is unusual and even unorthodox, I want to 
report some good news on homelessness. We are now achieving in 
this country what we have sought for a quarter of a century: 
Results on homelessness, change, progress on our streets, in 
our shelters, for our neighborhoods and communities. Visible, 
measurable, quantifiable change. Mayors reporting these 
results: In Miami, a 30 percent reduction in street 
homelessness; in Portland, Oregon, a 20 percent reduction; in 
Nashua, New Hampshire, a 26 percent reduction; in Raleigh, 
Durham, and Chapel Hill, North Carolina, a 17 percent 
reduction; in San Francisco, a 28 percent reduction; and in 
Philadelphia, an 81 percent reduction in Central City street 
homelessness.
    At a hearing 2 weeks ago, the VA and providers reported a 
reduction in the number of homeless veterans.
    Why is this new results-oriented mindset and approach 
working? For the past 20 years, Federal investment has 
increased. From the McKinney Act of 1987 to the President's 
record $4.15 billion level of proposed funding for 2007, the 
increase is tenfold, 1,000 percent. In that time, homelessness 
has increased. Researchers tell us that more than 2 million 
Americans experience homelessness in a year.
    Increased resources and increased numbers are a frustrating 
reminder that while new resources are important, new ideas are 
just as important. We cannot simply take the new resources and 
expend them on the old status quo. That is why these new 
resources and bills are so important, and that is why change is 
happening.
    We have learned much in the last 20 years. In the past few 
years, the Council has encouraged the creation of 
jurisdictional plans in States and cities that are informed by 
a management agenda that prioritizes results and outcomes. 
Informed by GPRA and the President's Management Agenda that 
calls for every Federal investment to be research and data 
driven, performance based and results oriented, those plans put 
new ideas and innovative initiatives to work for homeless 
people.
    Who benefits when Federal and other public and private 
resources are invested for results? Homeless people benefit, as 
do our neighborhoods and communities, businesses and police, ER 
workers, pedestrians, librarians, and we join with them. We are 
changing the verb of homelessness. No longer managing the 
crisis but ending the disgrace. We are moving from funding 
programs that serve homeless people endlessly to investing in 
the result of ending people's homelessness. We have seen it 
work in England, and now we are seeing it work here.
    And we have discovered that our attention to measurable and 
quantifiable outcomes makes common sense to jurisdictions that 
measure every other initiative in that way, and dollars and 
cents to the taxpayer. Shuffling homeless people between 
homeless programs or cycling them through expensive systems of 
health and law enforcement is expensive. Studies in a number of 
communities around our country indicate what that expense is in 
emergency rooms of hospitals, in police and law enforcement, in 
court costs.
    We have learned through those studies that the old status 
quo of ad hoc, siloed crisis interventions is more expensive 
and less effective.
    Of course, we have learned that what makes the most sense 
is to prevent homelessness in the first place. We save the 
human tragedy and taxpayer resources in that dollars and cents 
strategy.
    I am proud to be here today with Commissioner Dorfman, who 
this week joined with Minneapolis Mayor Rybak to become the 
212th community joining with us in a partnership across the 
country that includes 53 governors and 20 Federal agencies.
    Thankfully, the Community Homeless Assistance Act, 
forwarded by both of you and others is informed by 20 years of 
learning. With expansive input from stakeholders in and out of 
government, Committee staff is to be commended for their 
inductive approach to create added value in emphasizing 
housing, prevention, and performance to affirm in the law what 
is working and to dismiss what is not.
    And the HUD intent to consolidate several HUD homeless 
programs into a single initiative makes sense, common sense. It 
would be better in the field, for communities, for Continuums, 
and for the front lines. I endorse that consolidation and 
affirm the common direction in initiatives in both of these 
bills.
    Finally, our common intent through a national partnership 
is to end chronic homelessness in our Nation. The initiative is 
a priority, not an exclusivity. We have not forgotten homeless 
families. And the research and data is now being created to 
inform family policy and investment.
    Is everything perfect? No. Is progress being made? Yes. And 
the act and the consolidation will forward that progress. We 
have much work to do, but we are better prepared and equipped 
than ever before.
    Thank you.
    Senator Allard. Thank you for your testimony. Secretary 
Bernardi had a minute left over. I just gave it to you.
    [Laughter.]
    Mr. Mangano. Thank you.
    Senator Allard. Commissioner Dorfman, you are next.

                   STATEMENT OF GAIL DORFMAN

        COUNTY COMMISSIONER, HENNEPIN COUNTY, MINNESOTA

    Ms. Dorfman. Thank you, Mr. Chairman, and Senator Reed. I 
am honored to address the Committee this afternoon. And I first 
want to remember former Minnesota Congressman Bruce Vento. He 
spent his life dedicated to improving the lives of people 
experiencing homelessness. Congressman Vento left us too soon, 
but he left behind a legacy of working effectively on behalf of 
America's homeless, and that legacy will not be forgotten in 
Minnesota or in the Nation.
    I applaud you, Mr. Chairman and Senator Reed for 
introducing the Community Partnership to End Homelessness Act. 
Reauthorization of McKinney-Vento is absolutely critical if we 
are to change the paradigm, as Mr. Mangano said, from managing 
homelessness to ending homelessness in our communities.
    Yesterday, as has been said, we began an intensive 100-day 
effort to develop a blueprint for ending homelessness in 
Minneapolis and Hennepin County. Mr. Mangano joined us as 
leaders from the public and private sectors, nonprofit and 
philanthropic communities and the homeless--and I say that 
again, and the homeless--came together to commit to ending 
homelessness over the next 10 years. In partnership with the 
Federal Government and our State government, we will be 
successful, and will do it before the 10 years is up.
    In Hennepin County, we well remember what it was like 
before McKinney-Vento. Our shelters were overflowing, and we 
were vouchering families into hotels and motels, about 100 of 
them across the Twin Cities every night. Our average shelter 
stays were three times what they are today, and an alarming 
number of families were cycling in and out of shelter on a 
regular basis. McKinney-Vento dramatically improved upon the 
situation by supporting results-oriented programs. 
Additionally, through our partnership with the Federal 
Government, we have been able to leverage significant amounts 
of local dollars, $12.4 million in 2005 alone.
    Together, we have ended homelessness for thousands of men, 
women, children, and unaccompanied youth in our community. Over 
the past two decades, we have learned a great deal in Hennepin 
County about what does and does not work to end homelessness. 
We no longer look to shelters as the solution. Instead, we 
first focus on preventing people from becoming homeless 
whenever possible and rapidly rehousing them when they do.
    It costs 10 times more to house and resettle a homeless 
family than to prevent them from losing their housing in the 
first place. Through the support of McKinney-Vento funds, we 
have established one of the best family homeless prevention 
models in the Nation.
    In Hennepin County, we work hard to keep people in the 
housing they have. We have learned that prevention is the best 
and most cost-effective way to end homelessness. When families 
do become homeless, we work with them through our Rapid Exit 
program to quickly place them in permanent housing. Rapid Exit 
is a supportive services program funded by HUD, McKinney-Vento, 
and is listed on the HUD website, as a national best practice.
    Through Rapid Exit, Hennepin County contracts with highly 
effective, community-based providers who support both clients 
and landlords, the landlord piece is really critical, providing 
housing stabilization assistance while maximizing mainstream 
resources. They provide ongoing case management, help clients 
resolve personal issues that are barriers to their housing, and 
build relationships and build on the strength of their clients.
    As one provider told me, most homeless people are 
survivors. They have the innate strength to be successful, and 
we encourage them to use that strength. The case managers also 
assist landlords in resolving issues when their clients' 
housing is in jeopardy, cosign leases, provide financial and 
legal assistance. They are the intermediaries with the private 
landlords, and that is the single most effective way to recruit 
and maintain landlords, who are willing to rent to high barrier 
tenants.
    Our 2005 results, like past years, far exceed expectations. 
During the one year, 588 families, an average of three children 
per family, and 48 chronically homeless adults were placed into 
housing by Rapid Exit. Of the families, 94 percent remained out 
of shelter for the full 12 months. Of the 48 chronically 
homeless, we followed them for 6 months; 79 percent remained 
out of shelter. Additionally, 30 percent of the families, 60 
percent of the single adults who have been chronically 
homeless, increased their incomes during that period. Through 
the expansion of our prevention efforts in Rapid Exit, we have 
seen dramatic reductions, as I said, in the average length of 
stays, and the number of parents and children sheltered per 
year.
    And these kinds of results highlight the importance of 
innovative, results-oriented practices and our ongoing 
partnership with the Federal Government through McKinney-Vento. 
But, you know, the numbers are good, but the personal stories 
are the best, like the single mom from Illinois who fled from 
an abusive relationship with her four children and showed up in 
our county shelter in Minneapolis. She struggled with finding 
work, caring for her children, and getting them to school on 
time.
    Our Rapid Exit worker helped her locate a job and an 
apartment she could afford. Now, 10 years later, she owns her 
own modest home. Two of her children have graduated high school 
and are attending college, and she still calls her case manager 
every 6 months to proudly report on her success.
    The Community Partnership to End Homelessness Act and 
McKinney-Vento will bring us another step forward in our quest 
to end homelessness and provide stable housing. We support 
consolidation of McKinney-Vento programs, renewal of rent 
operating subsidies, automatic renewal; the 30 percent 
permanent set aside for individuals and families with 
disabilities; and the recognition of the critical importance of 
prevention.
    We are, however, concerned with just one point, the 
proposal to curtail certain services after 3 years. It is 
critical that services that directly support housing placement, 
coordination with the private landlords, and housing 
stabilization remain intact.
    Last, we support increased flexibility. The more creative 
we can be at the local level, the more likely we will be able 
to end homelessness for people in our community.
    Thank you so much for the opportunity to testify today.
    Senator Allard. I would just add that I served with 
Congressman Bruce Vento on the Ag Committee when I served in 
the House of Representatives, and he was truly dedicated to--at 
that time, we served on the Nutrition Committee on the Ag 
Committee, so he was truly committed, and I very much enjoyed 
working with him at that time on nutritional programs and how 
they would impact the homeless.
    So now, I am over here on the Banking Committee and taking 
a little different perspective, and I could not agree more with 
you that having a home to start with is a great starting spot. 
And then, things get much easier from that point on.
    My first question is to you, Mr. Secretary: What outcome 
and performance measures does HUD currently use for grantees? 
Given that the Continuum of Care has been rated as an effective 
program by the PART analysis, why is HUD proposing to change 
these highly effective programs.
    Mr. Bernardi. Thank you, Mr. Chairman.
    We are very pleased with the performance measurement score 
that we received from OMB. To end chronic homelessness and move 
families and individuals to permanent housing, we want to make 
sure that we use GPRA, and we use the measurements that are in 
place. We have increased the percentage of homeless persons 
staying in permanent housing over 6 months. That was at 70 
percent last year, and we are looking for an incremental 
increase in 2006; increase the percentage of homeless persons 
moving from transitional housing to permanent housing; we also 
measure the increase in the percentage of homeless persons 
becoming employed by 11 percent.
    I would like to state some accomplishments, if I may. In 
2005, HUD assisted nearly 125,000 homeless persons in moving 
from the streets or other living situations into the HUD 
McKinney-funded transitional housing or permanent housing. Of 
these, over 27,000 were chronically homeless, over 20 percent. 
Only 1 percent of people in HUD McKinney-funded housing fell 
back into the streets in 2005.
    Persons employed in 2005: Almost 30,000 persons became 
employed while in HUD-funded housing, and of those, 5,700, or 
approximately 20 percent, were chronically homeless. With our 
homeless management information system, of the 450 Continuums, 
about 75 percent of them right now have that system in place. 
And it is a collection of data; it is working with Mr. Mangano 
and the Interagency Council on the Homeless on their effort to 
end chronic homelessness. Both of those paths run parallel. And 
each and every year, the Continuums are doing more when it 
comes to measurement, when it comes to performance and 
reporting back to us.
    The difficulty that we have and the purpose of this 
legislation is that anywhere from 10 to 20 percent of the 
individuals that are homeless are what we identify as 
chronically homeless. And yet, they use up to 50 percent of a 
community's emergency resources. Now, that is an incredible 
number. So we feel very strongly, this Administration, the 
President, Secretary Jackson, and ourselves, that we really 
need to address that, and that is what the bill we have been 
working for does, with the consolidation of these three 
programs.
    I will stop there. I would like to go further into how 
strongly I feel about this consolidation; hopefully, I will 
have the time to do it, but we really need--as a former mayor, 
I can tell you, the Continuums of Care in this country, those 
450, they represent 3,700 jurisdictions, about 92 percent of 
the population.
    And with the Interagency Council on the Homeless, with 
their 200-plus States and cities that have signed onto their 
own individual plans and with the resources, $1.3 billion this 
year; a $200 million proposed increase for 2007, we feel we can 
do more with the resources that we have; that we can take these 
chronically homeless individuals and stop that revolving door; 
place them, these disabled individuals, into permanent housing, 
and with the supportive services that the Continuums provide 
and other agencies, we can bring them back to a productive life 
and eliminate that kind of expenditure not only from the 
Federal Government but also from the communities.
    Senator Allard. Mr. Mangano, I believe that you look 
around, and you see what programs are working and what are not, 
and those that are working, you try and replicate their 
success.
    As you look around the world, what countries have taken 
approaches to homelessness that have been effective, and what 
best practices can you see us adopting?
    Mr. Mangano. Well, I appreciate the question, and I was 
just at a meeting with 25 European countries who are all 
meeting together specifically on the issue of homelessness, and 
I would have to say the countries that had results as the 
orientation of their investment were England and Ireland. And 
there is no question that one of the best practices in the 
world is what is known as the Rough Sleepers Initiative in 
England, which targeted specifically people who were living on 
the streets of England.
    That best practice involved modest new resources from 
central government in England; had the political will of the 
Prime Minister; and was oriented to local planning processes 
that themselves were results oriented. The modest new resources 
of central government were invested in those results oriented 
plans, and in 3\1/2\ years, 3 out of every 4 people who were 
sleeping on the streets of England were no longer there, not 
through punitive means but through solution-oriented efforts.
    We have committed an act of ``legitimate larceny'' on that 
effort, and I think what we are doing here in the United 
States, thanks to the investment of HUD resources, and the 
Secretary mentioned the $200 million additional in the HUD 
budget, which is the Samaritan Initiative in the President's 
proposed budget; those would be important new resources in the 
investment that we are making in ending the homelessness of 
those who are the most visible and on the streets of our 
country.
    We are certainly learning from England and from Ireland 
where jurisdictionally based plans that are targeted to end the 
homelessness of the most visible. I will finish with this, as 
they achieved success in terms of the Rough Sleepers 
Initiative, 3 out of every 4 off the streets; people in 
Parliament were going home to their districts. There were fewer 
people on the streets in Manchester, Leeds, and Birmingham; 
fewer people as they walked to their offices in London.
    That remoralized Parliament, who had been reluctant to 
invest in any more, because they had not seen any results or 
outcomes. That remoralized them to reinvest in the issue of 
homelessness, and now, there is a deeper investment in family 
homelessness as a result of the achievements that were secured 
in the Rough Sleepers Initiative.
    Senator Allard. Success breeds success.
    Mr. Mangano. Exactly.
    Senator Allard. Okay; Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and let me 
ask, if I can, one question to each person and then reserve the 
right for additional questions later.
    Thank you, Mr. Secretary, for recognizing Kara Stein and 
the staff members. She would be here, but she has about a 3\1/
2\ week-old child to care for, and you understand that.
    Mr. Bernardi. That is the priority.
    Senator Reed. Indeed.
    In 1993, HUD created the Continuum of Care. It is a very 
effective program. What additional benefits do you see by 
essentially codifying the Continuum of Care in legislation that 
we are looking at?
    Mr. Bernardi. Well, I think it puts all the Continuums 
throughout the country basically in the same situation to be 
working together as they presently do. The part of the 
legislation that I really like is the prevention that we do not 
have now, and we have a little difference in our bills. We want 
to allow the Continuums to use 10 percent of the resources, and 
your bill, I believe, speaks to 5 percent.
    But we need to do more with prevention. If we can do more 
with prevention, obviously, I think, in the final analysis, we 
can begin to decrease the numbers. The Continuums, our 
proposal, as you know, calls for at least a 65 representation 
of nongovernmental entities. Those are the not for-profits, the 
foundations, the hospitals, the homeless people, people who 
have been homeless, and about a 35 percent representation of 
local officials.
    To codify that, to give them the emphasis that they need, 
right now, we at HUD receive--let us see, the notice of funding 
availability went out March 8; the 6,000 applications will be 
there by May 25, the close of business. We spend 6 months going 
over those applications and another 2 or 3 months putting that 
all together and making the announcements.
    By changing this and by codifying the Continuums, having a 
single application with a single match and comprising boards 
throughout the country in each one of these Continuums, we push 
where we should back to the local level. And then, they will 
hold their own individual competitions among their projects 
that they will prioritize and that they need the most.
    Again, I think this is the legislation that we need. I know 
legislation is difficult to come by, but I think we are very 
close on it, and with the support in the House and with your 
continuous support and the Chairman's, I feel very strongly 
that the Continuums, the 450 that we have in the country, I 
believe we have met with many of them; they are in favor of 
this; this would really address the chronic homeless situation 
that we have in this country by providing more permanent 
housing and even bonuses for these Continuums as we have these 
competitions; if their first priority is the chronically 
homeless, they can receive, after the pro rata share for need, 
15 percent more in their application, with a maximum of $6 
million, so the large cities do not take too much of the money, 
but that would provide additional dollars to really address 
those individuals.
    Now, some people may say to you, well, what about families, 
and what about other people that are homeless that are maybe 
not disabled? Well, the way the funding works right now, it is 
about 52 percent goes toward the chronically homeless and about 
47 percent for all the remaining homeless population.
    Senator Reed. Thank you very much, Mr. Secretary.
    Mr. Mangano, I just want to thank you for your over 20 
years of dedication to this issue and your help in working with 
the staff along with the Secretary and developing this 
legislation. And because time is dwindling, let me ask a 
question of Ms. Dorfman. Your project, Homeless Connect, is one 
that has been noted, and it features one-stop-shopping. I would 
hope and assume that the legislation we are talking about would 
facilitate these types of one-stop-shopping arrangements. Might 
you just briefly comment on that?
    Ms. Dorfman. Thank you, Mr. Chairman and Senator Reed.
    Project Homeless Connect I believe started with Mayor 
Newsome in San Francisco, and we thought it was a good idea, so 
we took it up last year. And it really is getting all the 
resources in one room from our community and broad-based 
participation and volunteers. And the way it works, and I will 
give you one success story, is we had a guy who was homeless 
come in at our last Project Homeless Connect who had serious 
and persistent mental illness, and there was a housing provider 
there who had a vacancy. But he needed to get on SSI, and he 
needed to get a mental health assessment in order to be 
eligible.
    But the mental health providers and psychiatrists were in 
the room, and the Social Security Administration was in the 
room, and so, they could fill all of those eligibility slots 
and problems that day, and this one individual was moved into 
supportive housing that very day. And in addition to that, he 
got a haircut before he moved in and a pair of shoes.
    And so, that is what it is all about breaking down those 
barriers that the chronically homeless have faced in having 
access to services. So if we have Project Homeless Connect 
combined with the McKinney-Vento supportive housing programs, 
it works beautifully, and that is what we are trying to do.
    Senator Reed. Thank you very much.
    Mr. Chairman.
    Senator Allard. Well, I think we are going to have to move 
on to the other panel. I was hoping maybe we might get another 
round of questioning. We have used up about 45 minutes or 40 
minutes right now, and we have about 45 minutes.
    And I do not think we have heard anything different on the 
vote schedule, have we? We have not yet, so let us still assume 
we have 5:00 votes.
    Senator Reed. We have warned everyone that we could send 
questions out and ask you to respond, and I think they waited 
for awhile before we did CFIUS.
    Senator Allard. They have already done a lot of waiting.
    Senator Reed. You have paid your time.
    Senator Allard. Thanks for your time and showing up here. I 
know it is not always easy to break away from your daily 
routines to be here, but your participation is very valuable, 
and we appreciate your taking the time to be with us.
    Thank you.
    Mr. Bernardi. Thank you very much.
    Mr. Mangano. Thank you, Mr. Chairman, Senator Reed.
    Ms. Dorfman. Thank you.
    Senator Allard. If the second panel would please come 
forward.
    I would like to welcome the second panel, and we will start 
with you, Mr. Berg, and then go right down the line until we 
hit Dr. Culhane. You will have the privilege of wrapping things 
up.
    Mr. Berg, you are on.

                   STATEMENT OF STEVE R. BERG

            VICE PRESIDENT FOR PROGRAMS AND POLICY,

             NATIONAL ALLIANCE TO END HOMELESSNESS

    Mr. Berg. Thank you.
    Good afternoon. I am Steve Berg. I am the Vice President 
for Programs and Policy with the National Alliance to End 
Homelessness. I would first like to thank you for holding this 
important hearing, for inviting us to testify and for 
introducing the Community Partnership to End Homelessness Act.
    I would like to start by saying that this is a particularly 
exciting time to be working on the issue of homelessness. Over 
the past few years, people at every level are beginning to see 
homelessness as a problem with a straightforward solution and 
that undertaking that solution is the right thing to do, and it 
is the smart thing to do.
    We are at the point where in the past year, a small number 
of communities that have been leaders at reforming their 
approach to homelessness are beginning to see quantifiable 
results in the form of fewer homeless people. Hundreds of other 
communities are now working hard to replicate that success and 
to end homelessness. We regard the introduction of this bill as 
an important step toward that goal, newly awarded we are proud 
to support the bill.
    To a very large extent, this bill codifies the practices 
that have evolved in the HUD Continuum of Care. Given the 
positive record of the Continuum of Care, that is completely 
appropriate. The most important and far reaching change that 
this bill would make is to give to communities that are ready 
to accept it the responsibility and the authority to direct 
their local efforts more strongly toward an outcome-based 
approach that holds the promise of ending homelessness. Now, 
this kind of strong leadership at the local level is one of the 
key elements in communities that have had positive results.
    The bill codifies some important specific provisions that 
provide for balancing good results. It ensures that some 
attention will be paid to people with severe disabilities, many 
of whom tend to remain homeless for the longest periods of 
time. Fortunately, the answer for this population is well 
known. It is supportive housing, with its strong record of 
cost-effectiveness and positive results for people.
    The bill would require that 30 percent of the funding 
nationwide be used for permanent housing for people with 
disabilities. That is something that has been in appropriations 
bills for the last 8 years. It has tended to give balance to 
the program and achieve good results.
    The bill makes important changes involving family 
homelessness. For a number of the communities that have had 
these quantifiable results, it has been reductions in 
homelessness among families with children that have driven 
those results. The stakes are huge, because the trauma of 
homelessness can affect children for years afterward. The bill 
would provide incentives to develop housing stock for families. 
It would encourage rental assistance. It would reward 
communities that quickly rehouse homeless families, and it 
would provide more money for prevention. These are all things 
that experience has taught us will be useful in reducing 
homelessness among families with children.
    Now, there are some issues that I believe are going to 
require continued consultation to attempt to resolve. We will 
need to continue to work on how to deal with communities that 
may not have the capacity to immediately undertake all the 
activities that collaborative applicants are expected to carry 
out under this bill. We will need to spend time working out the 
right approach to matching, since it is the experience of some 
providers that a cash match might cause inefficiencies and hurt 
communities that need the help the most.
    The extent to which HUD would be involved in funding 
services as opposed to housing remains controversial, and we 
will need to seek the input of people working in communities to 
see if the approach in this bill is an approach that would 
promote or hamper program effectiveness. I am personally 
confident that consensus on these issues, which are somewhat 
esoteric and technical, can be achieved and that we will be 
able to move forward.
    Finally, I would like to note that there are other areas of 
Federal policy beyond the structure of the HUD homelessness 
programs that have a huge role in determining whether we will 
be successful. A strong Interagency Council on Homelessness has 
proved to be crucial in moving us forward. Increased resources 
and good incentives in other Departments such as HHS, Labor, 
and VA are critical, and I would specifically like to note the 
Services for Ending Long Term Homelessness Act, Senator 
DeWine's bill, which, of course, Senator Reed is the chief 
Democratic sponsor and which would provide a much needed 
funding stream out of HHS to match up with the HUD funds on 
chronic homelessness.
    Finally, it is important to have strong programs to address 
the larger needs for housing for the most vulnerable Americans 
with the lowest incomes. The strong targeting that is in the 
affordable housing fund in the House version of the GSE bill 
would be an important step in this direction. It is of 
incalculable importance to retain the good features of the 
Section 8 voucher program, including targeting to the people 
who need it the most and in general to have strong support for 
HUD programs.
    I would like to thank the Subcommittee once again for its 
consideration of our testimony and offer to answer any 
questions either now or at any point in the future.
    Senator Allard. Mr. Gould.

                 STATEMENT OF CHARLES W. GOULD

           NATIONAL PRESIDENT, VOLUNTEERS OF AMERICA

    Mr. Gould. Chairman Allard, Ranking Member Reed, thank you 
for inviting me to testify this afternoon, and thank you for 
the leadership that you are providing on this vital challenge. 
My name is Charles Gould. I serve as the National President for 
Volunteers of America. I have submitted a written statement for 
the record, and I would like to summarize that.
    Volunteers of America is a national, nonprofit, faith-based 
organization that is dedicated to helping those in need to 
rebuild their lives and reach their full potential. For 110 
years now, since 1896, our ministry of service has supported 
and empowered America's most vulnerable groups, including 
homeless individuals and families. Our interventions both 
prevent and end homelessness in urban and in rural communities 
across the country. Last year, we provided assistance to about 
80,000 homeless children, youth, and adults.
    As a homeless service provider, my comments and 
recommendations today reflect the views of our staff from 
around the country, people who are on the ground every day 
working to end homelessness. Volunteers of America believes 
that by consolidating current programs, by broadening the lists 
of eligible activities, by focusing on homelessness prevention 
and by expanding the population to whom housing and services 
can be provided, reauthorization of HUD's homeless assistance 
programs will allow local communities to take full advantage of 
the best practices that have been developed over the past 20 
years.
    Since 1987, we have learned three key lessons about 
homelessness in America: First, McKinney-Vento programs are not 
a substitute for mainstream housing and social service programs 
or systems of care; second, family homelessness has 
significantly increased; and third, both permanent and 
transitional housing can be effective tools to end 
homelessness.
    Each of these lessons has significant policy implications 
in the context of the McKinney-Vento reauthorization bill 
before the Subcommittee, and my written statement details all 
of our recommendations, but I would like to focus on three in 
particular. First, we know that McKinney-Vento programs cannot 
end homelessness without ensuring that homeless persons are 
able to access the far greater resources that are available in 
mainstream housing and social service programs.
    So we must increase the percentage of McKinney-Vento funds 
being spent on homeless prevention and ensure that mainstream 
programs do not discharge people into homelessness. Intervening 
to end homelessness is considerably more expensive than 
ensuring that we prevent it, and preventing homelessness must 
be our primary social objective, so no individual or family 
spends time on the street or in emergency shelter.
    Second, recognizing that family homelessness continues to 
increase, any reauthorization of McKinney-Vento programs must 
allow local communities the flexibility necessary to assist all 
homeless populations. In this regard, Volunteers of America 
supports provisions of Senate bill 1801 that permit funds to be 
spent on permanent housing for nondisabled homeless families. 
We ask, however, that this Committee take additional measures, 
such as ensuring that the HUD definition of who is homeless 
includes persons who are doubled up or living in hotels or 
motels due to the lack of adequate alternative housing and 
requiring that the HUD definition of chronic homelessness 
include families.
    And finally, since we now understand that both permanent 
and transitional housing are effective at ending homelessness, 
we ask the Committee to provide incentives for both of these 
interventions so that every American community may plan to end 
homelessness and receive targeted funding to assist local 
individuals and families who are most in need. Thank you again 
for inviting me to testify, and I look forward to answering any 
questions.
    Senator Allard. Thank you.
    Mr. Love.

                   STATEMENT OF ANTHONY LOVE

         PRESIDENT AND CEO, COALITION FOR THE HOMELESS

                 OF HOUSTON-HARRIS COUNTY, INC.

    Mr. Love. Thank you.
    Good afternoon. My name is Anthony Love. I am the President 
and CEO of the Coalition for the Homeless of Houston-Harris 
County. Thank you for inviting the Coalition for the Homeless 
to testify in support of the reauthorization and amending of 
the McKinney-Vento Homeless Assistance Act.
    The Coalition for the Homeless of Houston-Harris County, 
known as the Coalition, is a private, nonprofit organization 
whose mission is to educate and advocate for the needs of 
persons who are homeless through support and the coordination 
of services. Founded in 1982 at the request of then City of 
Houston Mayor Katherine Whitmayer and then-Harris County Judge 
John Lindsay, the Coalition was formed to support those 
entities that provide direct support to people that are 
homeless through advocacy, education, collaboration, and 
community partnerships.
    The Coalition currently serves as the lead coordinator for 
the local Continuum of Care system. We serve in this role 
through the support and partnership with the City of Houston 
and Harris County. This collaborative was developed in 1992, 
and the foundation of this process is based on two principal 
concepts: Implementation and evaluation. Under the guidance and 
coordinating efforts of the Collaborative Continuum of Care 
Approach, Houston-Harris County's strategy became a model that 
HUD used to encourage other jurisdictions to develop.
    Last year, our local Continuum of Care provided funding for 
27 agencies, representing 62 programs and/or projects that 
spanned the spectrum of outreach, emergency shelter, 
transitional housing, and, of course, permanent supportive 
housing.
    In Houston-Harris County prior to Hurricanes Katrina and 
Rita, there were 12,000 to 14,000 men, women, and children 
without a place to call home on any given night. Last year, 
approximately 34,000 individuals accessed homeless services in 
our community. All of these services represent McKinney-funded 
agencies that function as the existing system to exit 
homelessness in Houston-Harris County.
    Since 1992, McKinney-Vento homeless assistance funding has 
been the major source of funding for the majority of homeless 
service agencies in Houston and Harris County. This funding has 
provided housing, employment, and other essential services to 
tens of thousands of individuals who have experienced 
homelessness in our community.
    McKinney-Vento for years has served as the impetus for 
collaboration and community solutions to ending homelessness. 
McKinney-Vento has enabled many communities to leverage 
millions of dollars in private funding and investment while 
also providing housing opportunities to thousands of low-income 
Americans who otherwise might not be able to afford housing of 
any sort.
    On the other hand, the current bill being considered would 
enhance the Act's ability to serve more people who are at risk 
of being homeless, realize that any reduction in HUD service 
dollars will not take place until adequate alternative funding 
is provided and expand who qualifies as chronically homeless.
    The Coalition supports this bill, especially the following 
three items: Provision of funding for preventing homelessness. 
By allowing communities to use up to 5 percent of their grant 
funding to prevent homelessness, a huge barrier to ending 
homelessness is significantly reduced. This provision truly 
provides a means of closing the front door to homelessness. The 
Continuum is incomplete without prevention as part of the 
collaborative process to create a seamless system of service.
    Involvement of more Federal agencies: One agency should not 
be expected to do it all or bear the burden of ending 
homelessness in our country. This measure ensures that multiple 
Federal agencies are involved in the provision of housing, 
health care, human services, employment, and other services as 
necessary and appropriate.
    Adjusting the role of the Interagency Council on 
Homelessness provides a nationally coordinated effort to 
complement local and State efforts. It also makes the issue of 
homelessness a national priority and serves as encouragement to 
local communities that this issue will remain important 
nationally.
    A broader definition of chronically homeless: The current 
definition of chronically homeless is restrictive and disallows 
much needed services to individuals and families, who also 
demand much from the current homeless assistance system. This 
new definition is more inclusive than the current definition, 
because it includes families who have an adult head of 
household with a disabling condition and people who are 
homeless other than only those who are sleeping in an emergency 
homeless shelter or in a place not meant for human habitation. 
This definition provides a more accurate picture of the 
individuals and families that are served by these community 
agencies every day.
    Again, the Coalition supports this legislation. However, we 
are concerned about the 25 percent match requirement and its 
possible effect on smaller nonprofits and their ability to 
apply for these funds. We are not opposed to this provision, 
but we are uneasy about the possible consequences and wonder 
aloud what type of barrier does this requirement create for 
smaller agencies that perform at a high level but with a 
smaller budget?
    Once again, I thank you for your invitation and this 
opportunity to speak on behalf of the Coalition. The Coalition 
supports your efforts to reauthorize and amend the McKinney-
Vento Homeless Assistance Act and the critical resources it 
will provide to communities in their efforts to end 
homelessness.
    Senator Allard. Dr. Culhane.

           STATEMENT OF DENNIS PATRICK CULHANE, PH.D.

       PROFESSOR OF SOCIAL WELFARE POLICY AND PSYCHOLOGY,

                   UNIVERSITY OF PENNSYLVANIA

    Mr. Culhane. Thank you, Chairman Allard, Ranking Member 
Reed, and Members of the Subcommittee for the invitation to 
come here today.
    Like the others, I want to commend you for your leadership 
in bringing this bill up, bringing some consolidation to these 
programs and codifying, as people have said, some of the best 
practices and knowledge that have developed over the years.
    I am going to speak to a few of the provisions in the bill 
that I support and a couple of the concerns that I may have, 
and then, I would be happy to answer any questions.
    The permanent housing setaside for the chronically 
homeless, of course, is something that I feel that research 
strongly supports. There has been a lot of research to show 
that a significant percentage of the shelter beds, more than 
half of them in the single adult population, are being used by 
people who are chronically homeless. They are effectively 
living in the shelter system, and they bounce around between 
jails, hospitals, and other very expensive systems of care at 
great cost, and research has shown that placing people in 
permanent supportive housing actually reduces their use of 
those services and saves money. So the setaside, I think, makes 
ample sense with regard to the single adult population.
    I did have a couple of concerns about the specifics in that 
area. One was that the language did not at present include a 
disability requirement among the single adults. Nearly all of 
the chronically homeless adults do have a disability, but I 
think we would want to be careful not to incentivize long stays 
in shelters as the sole means of accessing this rather limited 
resource.
    A second concern I have is about the inclusion of families 
in the category of chronically homeless. I go in greater detail 
in my written testimony on this, but to my knowledge of the 
research literature families are not considered within the 
category of chronically homeless people. While there are 
families who experience long shelter stays, and that is a 
problem that deserves to be addressed, they really have not 
been considered within the whole theory and research about the 
population who, without shelters or permanent supportive 
housing, would be living and even dying on our streets.
    Now, I think as a matter of principle, what we should be 
working toward is that no family should stay in a shelter long 
enough to qualify as chronically homeless. The fact that 
families are staying in shelters or transitional housing for up 
to a year is the problem, and that is what we need to address. 
I think that Ms. Dorfman from Hennepin County, who was on the 
last panel and described the work of that county and all that 
they are doing with the Rapid Exit programs and prevention, 
this is the direction to go.
    Recent research we have done shows that those long stay 
families in shelters are using about $22,000 each in shelter 
resources. That is the equivalent of 3 years of a Section 8 
vouchers in the City of Philadelphia. So you can either get 270 
days of shelter, 9 months, or you can get 3 years of housing 
for that same resource. So, I think it makes a lot of sense for 
us to be thinking about taking the resources that are going 
into long stays in shelters and into transitional housing and 
focusing on the Rapid Exit component. And I think that the 
evidence supports the fact that indeed, for families who linger 
in shelters, it only works to their detriment.
    If indeed there is going to be permanent supportive housing 
that is targeted for families, I would suggest that you 
recommend that the transitional housing stock is converted to 
that purpose, because right now, those transitional housing 
units are not targeted to special needs populations, and they 
do not have a demonstrable benefit for those families. We do 
not see in the literature that there is a benefit to longer 
stays in transitional housing as opposed to being in housing in 
the community.
    Another point is that I think that including families in 
the set aside could potentially dilute the intent of the bill, 
which is to codify what we have learned about targeting the 
chronic homeless initiatives for single adults.
    Another provision that I very much support is all the 
accountability measures in the bill, particularly the support 
for the homeless management information systems. We know that 
data and research has been critical to informing decisionmaking 
at the local level, and having these data systems is going to 
be the most important thing going forward.
    Many of the people coming into the homeless system are 
coming from other places, whether it is jails, prisons, or 
hospitals, and the only way we can put that fact on the radar 
screens of these other agencies is by having data which is 
tracking that and which we can show to these other entities, 
``Hey, you are not only having an impact on homelessness, but 
also these people end back up in your institutions if we do not 
do something about this.'' So really, I think it is critical in 
terms of the whole prevention agenda to have that kind of 
information infrastructure.
    Last, I just want to credit the 10-year planning processes 
that have been started and the way that the Interagency Council 
on Homelessness has really galvanized communities and changed 
the nature of the discussion about homelessness in this 
country.
    Finally, I am just a little concerned, I want to note, 
about the local planning boards described in the bill. One of 
the things I think we have learned from the Continuum of Care 
is that local government really needs to have a majority say in 
how these decisions are made, because they control all the 
policy levers; they control most of the resources in these 
communities; and only they have the public authority and 
accountability, I think, that can be driving consistency with 
the Federal agenda.
    Thank you.
    Senator Allard. Thank you all for your testimony.
    My first question is both to you, Mr. Berg and Mr. Gould. 
What is your opinion on the matter of a required setaside of 
Federal funding for permanent housing? We have heard from Dr. 
Culhane on that matter, and then, while you are answering the 
question, kind of share with us what you think might be an 
appropriate level for a setaside.
    Mr. Berg.
    Mr. Berg. Thank you.
    We have found over the last 8 years that the 30 percent 
setaside that has been included in appropriations bills has 
provided a balanced approach. It has directed new resources to 
practices; really driven a lot of the serious progress in a 
number of communities about that. And the bill, of course, 
retains that requirement, so that is the level we would 
support.
    Senator Allard. Mr. Gould.
    Mr. Gould. We also support the 30 percent setaside. 
Volunteers of America provides a great deal of permanent 
housing, and we think that the 30 percent level is an 
appropriate balance as well. However, we also find that 
transitional housing is a very important program to provide, 
and the bill would go further in providing additional 
incentives for permanent housing.
    We would prefer to see those same sorts of incentives 
provided for transitional housing to really balance out those 
needs.
    Senator Allard. Mr. Love, I have a different question for 
you. Please share with us your opinion of the requirement for 
State and local matching funds. Under a consolidated approach, 
what do you believe would be a reasonable matching fund?
    Mr. Love. Thank you; I do agree with the idea of having a 
matching fund, because that demonstrates the local level of 
investment in ending this condition of homelessness. I think an 
appropriate level would be 20 percent as opposed to 25 percent.
    In HUD's supportive services, there is a 20 percent 
requirement, and I know in our community, that level of match 
has been a lot easier to attain than the 25 percent level.
    Senator Allard. Okay; and then, on to you, Professor 
Culhane: Based on your research, what are the common elements 
among successful approaches toward ending homelessness?
    Mr. Culhane. Well, of course, common to all of those would 
be having some kind of housing, and usually, that is in the 
form of some kind of subsidized housing. That is a common 
component. And for people who need supportive services in order 
to maintain that housing, that is also a critical ingredient. 
But I think, yes, that is pretty much it.
    Senator Allard. Okay. I have a question for all of you.
    Now, we have heard a great deal about collaborative 
approaches and how that can approach, you know, promote 
coordination within the city. I believe also, it is important 
to have some coordination between jurisdictions, from neighbor 
city to another city down the road. And let me give you an 
example: One city has an excellent program; another one does 
not. Then, you know, you have a migration of homelessness from 
one part of the country to another.
    How much coordination currently happens between 
jurisdictions, and what can be done to promote greater 
coordination, and we will start with you, Mr. Berg, and just go 
right down the line if you want to respond.
    Mr. Berg. I think current practice, it very much varies. As 
you know, the current HUD program allows jurisdictions to come 
together to apply for the HUD programs. In many places, cities 
and counties, several cities in a county along with the county 
will apply for funding. Rhode Island, of course, the whole 
State applies as one entity. Other places, it is very much 
individualized, and each little town has its own Continuum of 
Care.
    I agree. I think the importance of consolidation of 
cooperation and collaboration across governments, between 
levels of governments, is very important. I think HUD has tried 
to encourage places to form larger Continuums just because they 
tend to get a little better results in terms of the score they 
get on their results, but I think there is probably some more 
that could be done there.
    Senator Allard. Mr. Gould.
    Mr. Gould. I would simply support that as well. Anything 
you can do to incent larger Continuums or that kind of 
collaboration, we would certainly support. I think it is very 
much across the board in a community by community experience.
    Senator Allard. Mr. Love.
    Mr. Love. I would also support that, and at the same time, 
I think when you have smaller communities that are surrounding 
a larger community, it is critically important for that smaller 
community to maintain their sense of identity and not feel 
that--I will give you an example. There are smaller communities 
around Houston. They seem to feel that Houston should be the 
sole source or the sole provider of coordinating services for 
individuals that are homeless. If they decided, as smaller 
communities, to take that mantle, they feel that they would 
draw people who are homeless to their communities.
    So a great deal of education would first and foremost have 
to take place, and then, I think increased incentives for those 
smaller communities to want to participate in that form of a 
collaboration would be necessary.
    Senator Allard. Dr. Culhane.
    Mr. Culhane. Yes, I would only add that I think that the 
10-year planning processes which have unfolded around the 
country have probably done more than anything to share 
information and collaboration across these regions. I think, in 
fact, there are some areas of the country where there are 
regional 10-year plans. And the State interagency councils on 
homelessness that have also emerged I think also have a role to 
play, where they can do the kind of information sharing and the 
kind of brokering of relationships among these localities.
    Senator Allard. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and 
gentlemen, thank you not only for your excellent but also 
succinct testimony. I appreciate that very much and thank you 
also for the dedication over many years to this issue of 
homelessness.
    Mr. Berg, could you just comment briefly on how the 
proposed legislation would help underserved homeless 
populations?
    Mr. Berg. Well, I think it provides incentives. It provides 
incentives to communities that I think are doing the most 
outreach and dealing with the problem. I mean, the current 
system does this a lot. I think this bill moves a little 
further in terms of rewarding communities that have a very 
comprehensive approach, including addressing all aspects.
    I think the underserved populations include the people who 
have lived on the streets for years and years; there is 
definitely a push there. One of the things I would mention is 
that we have to make some more progress in the area of 
homelessness in rural areas, and I think by opening up the 
process a little bit, this bill does that, but we are 
definitely going to have some work to do there. I think we are 
starting to see some progress.
    Senator Reed. Thank you very much.
    Mr. Gould, you made a very good point, I think, in your 
testimony about the homelessness programs do not operate in a 
vacuum. If we do not support CDBG and Section 8, we are going 
to have a real difficult problem, and you might elaborate on 
that, if you could.
    Mr. Gould. Well, it is a real concern that we not create a 
system here that requires that people be discharged from those 
programs into homelessness in order to access these funds. This 
bill would do a great deal of good. But if we focus too much at 
one end and force people to really become chronically homeless 
before we help them, we really are going to increase the cost 
on the other end, and that is a very real concern for us in 
this bill.
    Senator Reed. Good.
    And Mr. Love, you have had extensive experience over 10 or 
more years in dealing with homelessness issues, and you 
actually run the Houston Continuum of Care, I think, through 
your office.
    Mr. Love. Yes.
    Senator Reed. And I will ask you the same question I asked 
the Secretary, how codifying this Continuum of Care, we 
presume, in the legislation, will be very helpful from your 
perspective.
    Mr. Love. Yes.
    Senator Reed. What do you hope will happen?
    Mr. Love. Absolutely. In particular, certain provisions 
within the legislation that the Continuum has not been able to 
access; in particular, the prevention measure. Usually, 
prevention funds came from ESG, which kind of sat outside of 
the Continuum of Care. By making it a part of it, when you look 
at the Continuum of Care chart, all of it functioned based upon 
the person actually becoming homeless and then going through 
the system. Adding this prevention measure, in my opinion, 
expands the Continuum of Care and creates a real system in 
terms of addressing the issues of homelessness.
    Senator Reed. I think we have heard from everyone that the 
prevention issue might be one of the key aspects of this new 
legislative approach if we can codify it and support it with 
real resources.
    And Dr. Culhane, again, thank you for your extensive 
academic expertise on this issue and your presence here today. 
Part of the legislation we are proposing would have a 
collaborative applicant panel and would serve under our bill to 
look at some of these proposals, and I wondered if you have any 
comments about the composition of that. I think you referred to 
it before about making sure that there is a heavy government 
presence, and might you elaborate?
    Mr. Culhane. Yes, I think one of the things that we learned 
from the Continuum of Care process in a number of the 
communities that I have had the opportunity to work in is that 
local government has been frustrated that they have not always 
had a significant enough decisionmaking power on those local 
Continuums, so even though they may control most of the policy 
levers, and they may spend most of the money on emergency 
shelter. In a place like Philadelphia, for example, they pay 
for the entire shelter bill or in New York City, they pay the 
entire shelter bill. But yet, they do not control the Continuum 
of Care process.
    Now, I am not saying that partnership and collaboration is 
not valuable. We need the input of the provider community, the 
advocate community, et cetera, but only local government really 
has the authority, really has the resources, has the policy 
levers to pull all of this together to meet a specific, set of 
policy objectives.
    And so, I would encourage you to think about making sure 
that there was some kind of majority composition of those 
boards that was local government.
    Senator Reed. Mr. Love, since you are right there in the 
middle of it all, your comments on this issue.
    Mr. Love. Yes, in Houston, in particular, we serve as the 
lead agency, but it is a collaborative process, and the 
collaboration is made up of the Coalition for the Homeless as 
the lead agency; representatives from the City of Houston and 
representatives from Harris County, and we operate as that 
collaborative, meaning that there has to be two votes before 
anything is done or any initiatives are moved forward.
    One of the reasons that the Coalition was made as the lead 
agency because of the flexibility and the lack of bureaucracy 
entailed within a 501(c)(3).
    Senator Reed. So essentially, how your operation works, you 
have three voters.
    Mr. Love. Yes.
    Senator Reed. The county, the city, and the Coalition.
    Mr. Love. And the Coalition.
    Senator Reed. You are the lead agency; you develop the 
ideas, but if they both dislike it, then, you cannot do 
anything.
    Mr. Love. Absolutely.
    Senator Reed. Good.
    Mr. Berg, Mr. Gould, any comments on this issue?
    Mr. Berg. I would agree. This is done different ways in 
different places, but when we look at the places that are 
really having success, they all have a very strong role by the 
public sector, for the reasons that Dr. Culhane spelled out. We 
need to ensure that the process will work in a community where 
the public sector is not particularly interested, and there are 
those communities. That is the only caveat to that.
    Senator Reed. Good point.
    Mr. Gould. And just that the collaborative effort among the 
nonprofit organizations I think is also an essential component 
to that that really brings a lot of value to it.
    Senator Reed. Indeed.
    Mr. Chairman, do you have another round?
    Senator Allard. Do you want to do another round?
    Senator Reed. It is up to you. I think we have----
    Senator Allard. I think we have pretty well covered 
everything that we need to. I think you have all given us very 
good testimony. You have given us good responses to the 
questions, and I hate to tie your day up any more than what we 
already have. I think maybe if you had any flights later on 
today, you may have already missed them; I do not know. If you 
have not, we want to give you an opportunity to catch them.
    And so, I just remind you again that the record is going to 
stay open for 10 days. There might be some questions that 
Members on the Committee or from the Committee itself will 
submit to you, and if you would expedite responding to those 
questions and get your answers back in 10 days, we would 
appreciate that very much.
    And so, with that, we will go ahead and adjourn the 
hearing, and thank you.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]
                 PREPARED STATEMENT OF ROY A. BERNARDI
   Deputy Secretary, U.S. Department of Housing and Urban Development
                             March 30, 2006
Introduction
    Good afternoon. I am pleased to be here to discuss the proposed 
consolidation of HUD's 3 competitive Homeless Assistance Grant programs 
into a single program aimed at alleviating homelessness in this 
country. Consolidation would provide: (1) more flexibility to 
localities; (2) grant-making responsibility with local decisionmaking 
bodies; (3) funds for prevention of homelessness; and (4) dramatic 
reduction in the time required to distribute funds to grantees. The 
proposal would also further the Administration's goal to end chronic 
homelessness.
    HUD has been providing funding for homeless programs since 1987. 
Through its programs, HUD has awarded billions of dollars to 
communities across the country. Approximately 5,000 projects each year 
receive funds to alleviate homelessness in their communities.
    In 1994, HUD developed the Continuum of Care planning and grant 
process, which calls for communities to develop local plans for solving 
homelessness. It is a community-led effort that involves a diverse 
group of organizations, including State and local government, public 
housing agencies, nonprofit providers, foundations, and homeless and 
formerly homeless persons. The Continuum identifies the community's 
housing and service needs, as well as the existing inventory to address 
those needs. The Continuum then assesses remaining needs and determines 
how to best address them, proposing an overall plan and specific 
project requests for HUD funding. Since 1994, the Continuums have 
proven to be effective as a coordinating body for fighting 
homelessness; among the reasons for their effectiveness are the broad-
based partnerships they have forged at the local level.
    The Continuum of Care program is made up of three programs: 
Supportive Housing Program; the Shelter Plus Care Program; and Section 
8 Moderate Rehabilitation Single Room Occupancy Dwellings for Homeless 
Individuals, or SRO. Senators Reed and Allard have introduced a bill 
that would affirm the role of local planning entities, bring HUD's 
three competitive programs into one program, and provide for even more 
local decisionmaking authority and flexibility. I want to recognize the 
two Senators for their longstanding commitment to alleviating 
homelessness. I also want to acknowledge their hard work in developing 
this very worthwhile proposal. Their bill would greatly simplify how 
HUD's resources could be used to effectively and efficiently solve 
homelessness.
    I also want to thank Congressman Rick Renzi who has introduced the 
Administration's bill. Our bill is similar in many ways to the 
legislation introduced by Senators Reed and Allard. For example, both 
bills would decentralize the Federal role in selection of applications 
for funding and speed up the award process. Currently, staff at HUD 
headquarters reviews nearly 6,000 individual project applications each 
year. This is one of the largest and most intensive grant competitions 
in the Federal Government. It takes the Department nearly 6 months to 
review the applications; once selections are made, 3-6 additional 
months are needed to finalize the nearly 5,000 awarded contracts. Both 
bills would greatly simplify this process by reviewing an overall 
application from each community and then having the communities award 
local projects for funding. Rather than taking up to a year to review 
and execute contracts, the proposals would reduce the timeframe to a 
few months. This would result in the timely obligation of funds and 
assistance to those who literally have no place to live.
    The bills would also greatly simplify the match requirements. 
Currently, one of the programs, the Supportive Housing Program, has, by 
statute, a 100 percent match requirement for capital costs such as 
acquisition and rehabilitation, a 25 percent match for operating costs, 
a 20 percent match for supportive services and no match requirement for 
leasing. Both bills would establish a single match requirement of 25 
percent for all activities.
    HUD's Continuum of Care programs maintain a unique and 
comprehensive public-private partnership for ending homelessness. The 
programs work within broad national goals. We have established through 
the Continuum concept a resource-driven planning and allocation system, 
with emphasis on local decisionmaking processes. The Continuum also 
provides a focus on performance as a key element of local planning 
outcomes. The proposed consolidation starts with all of these strengths 
and expands on them, by decentralizing Federal processes and moving 
community planning to the local level. This way, decisionmakers can 
more effectively work to solve homelessness and end chronic 
homelessness in their communities.
Unique and Comprehensive Program
    The Continuum of Care is a unique and comprehensive public-private 
partnership. It calls for all stakeholders within a community to be 
involved in shaping solutions to homelessness. They identify the needs, 
assess existing resources, and prioritize projects needing funding. 
State and local government officials, nonprofit homeless providers 
including faith-based and other community organizations, foundations, 
businesses, hospitals, law enforcement, schools, and homeless and 
formerly homeless persons are all part of the Continuum of Care. Over 
3,700 jurisdictions participate in the Continuum of Care process, 
representing over 92 percent of the U.S. population. The skills, 
abilities, and resources of each stakeholder are maximized and 
leveraged to make a visible difference within their community. Both 
bills would codify this concept, which was created by HUD through 
administrative means.
    A significant enhancement in these bills would add prevention as an 
eligible funding activity. Prevention is a key part of solving 
homelessness, and is an important element in both bills. The proposed 
legislation would allow projects to spend HUD funds on prevention 
activities, such as utility payments or rental assistance, for persons 
at risk of becoming homeless. This way, HUD can help keep people in 
their homes and prevent people from actually becoming homeless. Not 
only would this reduce additional, unnecessary costs on a city's 
homeless system, but it would improve continuity of housing for 
individuals and families, improving their ability to function as 
productive members of society.
    In HUD's current competitive grant programs, applicants must 
explain and document their efforts to prevent homelessness. By allowing 
the Continuum programs to fund homelessness prevention, both bills 
would place greater emphasis on its importance.
Targeting Most In-Need Populations
    In addition to preventing homelessness for those at risk, HUD's 
homeless programs are addressing another portion of the population: The 
chronically homeless. These are the hardest-to-serve individuals; they 
have been in and out of homeless shelters and on the street for long 
periods of time. In 2002, the Administration set a goal of ending 
chronic homelessness for this population. Through the Continuum of Care 
grants, HUD funds have been working to effectively achieve this goal.
    In fact, while representing just 10 to 20 percent of the homeless 
population, they consume up to 50 percent of emergency resources in a 
city. Instead of having these individuals cycling through the various 
public systems and using these emergency resources, this Administration 
has focused on providing permanent housing as a way to improve cost 
effectiveness for the community and quality of life for the individual. 
In fact, $365 million, or 30 percent of HUD competitive homeless 
assistance funds, were awarded to projects targeting the chronically 
homeless in 2005.
    While this Administration has not shied away from serving this 
difficult population, it has also not forgotten about the needs of 
homeless families with children. In fact, 70 percent of funds awarded 
this past year went to projects that targeted persons who were not 
chronically homeless, especially homeless families.
A Results-Oriented System
    The Continuum of Care approach is also a resource-driven planning 
and allocation system. Prior to the Continuum of Care, individual local 
projects independently applied in separate HUD competitions for a 
particular homeless assistance program. This previous approach did not 
promote local coordination or strategic planning. The Continuum of Care 
requires thoughtful, strategic planning across a community so that the 
needs are identified and prioritized. The community then chooses from a 
menu of existing HUD homeless resources, including the Supportive 
Housing, Shelter Plus Care, and the Section 8 SRO programs.
    Moreover, the Continuum of Care ensures that the community links 
its efforts to other plans and funding sources. For instance, 
Continuums are scored on whether they are part of HUD's resource-driven 
Consolidated Planning process. This helps ensure linkages and resources 
from other parts of HUD such as the Community Development Block Grant, 
HOME, the Emergency Shelter Grants, and the Housing Opportunities for 
Persons With AIDS Programs. The Continuum also encourages active 
linkages with existing jurisdictional 10-year plans to end chronic 
homelessness.
    The consolidation bills would enhance the existing resource-driven 
and allocation system of the Continuum of Care by providing a modest 
amount for administrative costs, including strategic planning and 
monitoring. The bills would also provide a more efficient resource-
driven system by consolidating and greatly simplifying the various 
homeless assistance programs into a single program.
A Performance-Based System
    The Continuum of Care approach is performance based. The 
application contains a performance section that represents 30 percent 
of the score in the annual Continuum of Care competition. The core of 
this performance section is the Government Performance and Results Act 
(GPRA) indicators by which Congress assesses HUD for the area of 
homelessness. Our GPRA goal is to end chronic homelessness and help 
families and individuals move to permanent housing. The specific 
indicators with which we measure a community's progress in achieving 
this goal include: The percent of homeless clients who move to 
permanent housing; the percent of clients in permanent housing who 
remain stably housed; and the percent of homeless clients we serve who 
become employed. In addition, creating permanent housing units has been 
another important aspect of achieving this goal. Finally, we measure 
the extent to which the Congressional directive to implement and use a 
Homeless Management Information System is achieved in each community. 
By connecting HUD's performance with that of our grantees and 
ultimately homeless clients we are seeing success.
    HUD's GPRA efforts have been touted by the Office of Management and 
Budget (OMB) as exemplary for other Federal programs to emulate. HUD's 
Continuum of Care programs were recently rated ``Effective'' when 
assessed by the Administration's Program Assessment Rating Tool (PART). 
That rating underscores the efficacy of the Continuum of Care approach.
Key Differences
    While the two bills are similar in the overall design and a number 
of specific areas, there are also some differences between the bills. 
For example, the Administration bill:

<bullet> Ensures broader participation in the Continuum of Care Board 
    (that is, greater participation by nongovernmental entities);
<bullet> Assures greater accountability in the expenditure of funds for 
    homelessness by each Continuum of Care by requiring each Continuum 
    to be a legal entity;
<bullet> Focuses more on chronically homeless persons living on the 
    streets;
<bullet> Provides for renewal of all types of projects, including 
    transitional housing;
<bullet> Provides greater flexibility for the kinds of services needed 
    to solve homelessness;
<bullet> Provides greater flexibility in using program funds to prevent 
    homelessness; and
<bullet> Better targets its permanent housing resources for those who 
    are most vulnerable: The disabled.

    Overall, consolidating the three Continuum of Care programs and 
codifying it in statute would allow far greater flexibility, which will 
enable improved performance and effectiveness of HUD's Homeless 
Assistance Grant programs. Thank you very much for inviting me to be 
here. I am looking forward to more discussions on this issue that is so 
critical to the future of our nation.
                               ----------
                PREPARED STATEMENT OF PHILIP F. MANGANO
      Executive Director, U.S. Interagency Council on Homelessness
                             March 30, 2006
    Chairman Allard, Senator Reed, and distinguished Members of the 
Committee, I appreciate the commitment you are expressing to 
homelessness in today's hearing.
    I appreciate the work of Senators Reed and Allard to bring this 
bill before the Subcommittee, knowing its long development and 
thoughtful integration of the experience of the last 19 years. The 
inclusive process that Committee staff employed in creating the bill is 
appreciated. The input from stakeholders across the country in and out 
of government assured that the bill represented a broad constituency.
    I am pleased to endorse the Administration's proposal to 
consolidate the Homeless Assistance competitive grants at the 
Department of Housing and Urban Development to more effectively assist 
individuals and families in leaving homelessness and moving to 
permanent housing and self-sufficiency. Consolidation of these programs 
would also give localities more decisionmaking power over their funds 
and provide a greater focus on prevention of homelessness.
    I have been the Executive Director of the U.S. Interagency Council 
on Homelessness since March 2002. The Council is an independent Federal 
entity with a mission to coordinate the Federal response to 
homelessness and to create a national partnership at every level of 
government to reduce and end homelessness in the Nation and forward the 
Administration's goal of ending chronic homelessness. Since 
revitalization by the President in March 2002, the U.S. Interagency 
Council on Homelessness (USICH) has fostered interagency, 
intergovernmental, and intercommunity partnerships in the creation of 
an unprecedented national partnership focused on homelessness. Over the 
past 3 years, the Council has worked with Governors to create State 
Interagency Councils on Homelessness to mirror the work we are doing in 
Washington in the Federal Council. These State Councils make State 
resources more available and accessible. Fifty-three Governors are now 
partnered in the creation of such Councils.
    There are 20 Federal agencies which make up the Council membership, 
meeting regularly in Washington and 53 State level Councils, but the 
frontlines of homelessness are in local communities. Building on the 
10-year planning process set in motion by the National Alliance to End 
Homelessness, the Council has been active for the past 3 years through 
its Regional Coordinators and the encouragement of HUD through its 
Continuum of Care grants to foster local 10-Year Plans to End Chronic 
Homelessness. Two hundred twelve localities are now committed with the 
full support of their Mayors and County Executives to ending chronic 
homelessness. As part of the partnership, the Council has provided 
technical assistance to cities to ensure results in their communities 
in ending chronic homelessness.
    These local planning processes have created unprecedented local 
partnerships that have brought together the nonprofit sector, business 
sector, faith and community-based organizations, in results oriented 
business plans to achieve the outcome of reducing and ending chronic 
homelessness.
Introduction
    Having been involved in the response to the problem of homelessness 
for a quarter century now, I want to first express my appreciation and 
solidarity with those who have been on the frontline of response, in 
the forefront of local efforts.
    A decade before the McKinney Act came into existence, countless 
faith and community-based nonprofit groups, as well as the 
philanthropic and business community joined by concerned citizens 
provided extraordinary and heroic work to our homeless neighbors. 
Unfortunately, the need and numbers grew despite these efforts.
McKinney-Vento Importance
    In 1987, the passage of the McKinney Act contributed a range of new 
resources and restored morale to the work that local groups were doing 
to assist those who had fallen into homelessness.
    I was Director of Homeless Services in the City of Cambridge that 
summer in 1987, and I can assure you that all across that city, the 
State, and the Nation there was relief that reinforcements and 
resources had arrived.
    Thankfully, over the last two decades the McKinney-Vento programs 
at a range of Federal agencies have supplemented other public and 
private resources all across the Nation. Without that Federal funding 
there is little question that homelessness would be even more pervasive 
than it is now.
    In the nearly 20 years since then, the McKinney-Vento programs have 
been an important source of resources for our local and national 
responses.
The Role of Federal Agencies
    Much credit must go to the important role that HUD and a number of 
other Federal agencies has had in prioritizing homeless people and 
focusing both targeted homeless funds and mainstream funding to assist 
in the national effort. HUD, along with other Federal agencies, has 
been central in the national quest to reduce and end homelessness by 
funding vital research, direct services, employment resources, and 
permanent housing, Through HUD's Continuum of Care grant process, local 
Continuum of Care boards--in nearly every locality across the country--
receive funds to help end the problem of homelessness in their 
communities.
    Through collaborations and initiatives by Department of Housing and 
Urban Development, Department of Health and Human Services, Department 
of Veterans Affairs, Department of Labor, Department of Education, 
General Services Administration, Department of Justice, and the Social 
Security Administration significant investments over the last several 
years have made a difference for our most vulnerable and disabled 
citizens.
Increased Federal Investment
    In the past 5 years, targeted Federal resources have increased to 
record levels each year, including the President's proposed budget for 
2007 which includes an increase to bring total targeted Federal funding 
to a record level of over $4.1 billion.
    That increase includes the Samaritan Initiative at HUD which 
targets $200 million to help those who are chronically homeless--those 
who are on the streets and long term in our shelters. Samaritan is an 
important resource to continue efforts to spur the Administration's 
goal to reduce and end chronic homelessness, now a national initiative 
supported by Governors, Mayors, County Executives, nonprofit providers, 
and private sector partners all across the Nation.
    If the President's proposed funding level for 2007 is approved, 
there will have been nearly a tenfold increase in targeted resources 
for homelessness since the McKinney Act first passed in 1987. In fact, 
just in the past 4 years, McKinney Act programs have increased more 
than 20 percent. Overall targeted homeless funds have increased by over 
30 percent during that time.
    Homelessness remains a significant problem across the United 
States. Researchers tell us that on any given night, there are between 
600,000 and 800,000 Americans who are homeless. A recent USA Today 
article indicated over 700,000 on that night. In the course of a year, 
researchers tell us that more than 2 million of our neighbors 
experience homelessness.
    Increased resources and increased numbers are a frustrating 
reminder that, while new funding is important, new ideas are just as 
important. We cannot simply take the new resources and expend them in 
the status quo.
Twenty Years of Experience and Learning
    We have learned a great deal to inform policy and investment over 
the past 20 years and those insights need to inform any changes to 
McKinney-Vento.
    Here are a few of those insights:
    1. No one level of government, no one element of the private sector 
can get the job done alone. We need to be partnered in every facet of 
the public, private, and nonprofit sectors. And the entire community 
must be partnered from the jurisdictional CEO--whether Mayor, County 
Executive, or city manager--to those nonprofit providers who are on the 
frontlines to business, academia, philanthropy, advocates, formerly and 
currently homeless people, to each level of government, all partnered 
together as stakeholders on this issue.
    2. Federal resources must be invested in the result of ending 
people's homelessness. Resources should be aimed at creating 
opportunities for individuals and families to rebuild their lives by 
funding case management, employment services, benefits coordination, 
and permanent housing.
    Public and private sector partners have also joined us in moving 
beyond managing the crisis to reducing and ending homelessness. The 
National Governors Association, U.S. Conference of Mayors, National 
League of Cities, National Association of Counties, United Way, the 
International Downtown Business Association, National Alliance to End 
Homelessness, The National Alliance of the Mentally Ill, and others are 
partnered with us nationally. And they have committed to join with us 
in beginning that effort to end the homelessness of those who are the 
most disabled and most vulnerable, people experiencing chronic 
homelessness.
    3. Federal resources should be invested according to what works. 
Investments should be data and research driven, performance based, and 
results oriented.
    4. People experiencing chronic homelessness are expensive. Research 
tells us that, while they number only between 10 and 20 percent of the 
homeless individual population, they consume half of all emergency 
shelter resources. And recently through research conducted in local 
communities across the country, we are learning that chronic 
homelessness is costly in expensive mainstream health and law 
enforcement systems. Funding of housing, treatment and services and 
planning for these individuals must be coordinated across all sectors 
in local communities.
    5. 10-Year Plans to End Chronic Homelessness encouraged by the 
Council bring the entire community together in a stakeholder informed 
planning process focused on results. When those strategies are business 
plans driven by the political will of the local jurisdictional leaders, 
change happens, results are quantifiable.
    HUD has encouraged its local Continuums of Care to partner in 
jurisdictional 10-Year Plans. These plans not only ensure that all 
levels of government are partners in the community-based strategies and 
include resources from a variety of Federal agencies, they importantly 
provide a place for all stakeholders--from the Chamber of Commerce to 
downtown business associations, law enforcement, hospital 
administrators, providers, librarians, and all others who are concerned 
and impacted.
    6. Perhaps most importantly, jurisdictional plans are creating 
inclusive local partnerships that are achieving results and leveraging 
resources. Two hundred eleven communities are now partnered with the 
Council through their Mayors and County Executives. Jurisdictionally 
led planning infused with local political, social, and civic will are 
achieving visible and measurable outcomes in implementing their 10-Year 
Plans.
    In a 40 city survey conducted by the Council, jurisdictional plans 
and our increase in Federal resources have leveraged more than $2 
billion in State, local, and private funds in the past 3 years.
    7. We know that permanent supportive housing works for vulnerable 
and disabled populations. When McKinney-Vento was first passed, this 
technology developed in the mental health system of response was not in 
common use. Today, communities across the country are targeting this 
technology to those experiencing chronic homelessness and achieving 80-
85 percent retention rates on average. And another technology borrowed 
from the mental health system, Assertive Community Treatment Teams, 
known as ACT, is making a significant difference on the streets, 
engaging those who were thought to be intractably homeless there and 
providing the clinical and multidisciplinary strategies to end their 
street homelessness and support them in housing. A consumer-centric 
response rooted in opportunities for housing, services, benefits, and 
employment is working.
    8. We now understand the priority that needs to be placed on 
prevention. For too long we bailed the leaking boat of homelessness, 
some moved out, more moved in.
    Again, research helped us understand that, without prevention 
strategies, especially focused on effective discharge planning 
protocols from mainstream systems of care and incarceration and 
services, our intervention efforts would not create the results we 
expect.
    9. Employment must be part of the strategy to reduce dependency and 
increase self-sufficiency.
    10. Research and innovation investments have shaped initiatives 
that are evidence-based and produce results. Both have been essential 
in advancing policy in this Administration.
Reauthorization of McKinney-Vento and Consolidation of HUD's Homeless
Assistance Grants
    The Administration's proposal as well as the Bill introduced by 
Senator Reed would reauthorize McKinney-Vento and consolidate HUD's 
competitive Homeless Assistance Grants. Both of these proposals would 
provide: (1) more flexibility to localities, (2) grant-making 
responsibility to local boards, (3) provide a significant amount of 
funds for prevention of homelessness, (4) continued support for the 
creation of permanent housing opportunities, and (5) dramatically 
reduce the time required to distribute funds to grantees. The 
Administration's bill would also further the goal of ending chronic 
homelessness.
    The proposals to consolidate the Homeless Assistance Grant programs 
would address the needs identified by the lessons learned over the past 
20 years.
    1. An increased focus on prevention activities including the 
development of discharge planning protocols, research, and innovations 
will forward the national objectives on homelessness. Prevention stops 
the human tragedy before it begins and is less costly than 
homelessness.
    2. The focus on permanent housing and the targeting by HUD and the 
Congress is the right direction to reduce and end homelessness. 
Prioritizing McKinney resources to create and access permanent 
supportive housing makes sense.
    3. Cost benefit analyses continue to demonstrate that housing and 
supportive service solutions for chronic homelessness may be less 
expensive than this population randomly ricocheting through the 
homeless system and expensive mainstream health and law enforcement 
systems.
    4. Coordination at the local level of all relevant local 
government, nonprofit, and private sector players is key to making 
Continuum of Care funding and 10-year jurisdictional plans successful.
    5. Coordination of Federal investments ensures that each agency 
initiative is supporting a national strategy. Cooperation of Federal 
agencies ensures that such investments are monitored for evidence based 
results.
Conclusion
    Across the Nation, localities in partnership with all stakeholders, 
public and private, have been reenergized on the issue of ending 
homelessness in their communities. The mind set across our country has 
changed in the past few years. The creation of State Interagency 
Councils on Homelessness and jurisdictional 10-Year Plans have 
stimulated this new sense and provided a nexus point for their joint 
impact. The commitments of Federal agencies to new initiatives and new 
investments have provided inspiration. HUD's partnerships in the field, 
especially through the Continuum of Care, have offered resources and 
coordination among providers. The Continuum of Care process would be 
strengthened by consolidation of programs with an even greater focus on 
local collaborations and prevention of homelessness.
    There is now a national intent to end the disgrace of homelessness 
beginning with chronic homelessness, visible on our streets and in our 
shelters. We have much work to do, but we are better prepared and 
equipped than ever before.
                   PREPARED STATEMENT OF GAIL DORFMAN
                County Commissioner, Hennepin County, MN
                             March 30, 2006
    Chairman Allard, Senator Reed, and Members of the Committee, I am 
Gail Dorfman, County Commissioner from Hennepin County, Minnesota, and 
the City of Minneapolis. I am honored to address the Committee this 
afternoon on the reauthorization of McKinney-Vento and the 
consolidation of HUD programs for the homeless. I first want to 
remember former Minnesota Congressman Bruce Vento, who throughout his 
life of public service was dedicated to improving the lives of people 
experiencing homelessness. Congressman Vento left us too soon, but left 
behind a legacy of working effectively on behalf of America's homeless, 
a legacy that will not be forgotten.
    I applaud you, Mr. Chair and Senator Reed, for introducing the 
Community Partnership to End Homelessness Act of 2005. Reauthorization 
of McKinney-Vento is critical if we are to change the paradigm from 
managing homelessness to ending homelessness in our communities. 
Yesterday, we began an intensive 100 day effort to develop a Blueprint 
for Ending Homelessness in Minneapolis and Hennepin County. Mr. Mangano 
joined us as leaders from the public and private sectors, nonprofit and 
philanthropic communities and the homeless came together to commit to 
ending homelessness over the next 10 years. In partnership with the 
Federal Government and our State government, we will be successful, and 
we will do it before the 10 years is up.
    In Hennepin County, we well remember what it was like before 
McKinney-Vento. Our shelters were overflowing and we were vouchering 
families into more than 100 hotel and motel rooms across the Twin 
Cities every night. Our average shelter stays were three times what 
they are today and an alarming number of families were cycling in and 
out of shelter on a regular basis. McKinney-Vento has helped to 
dramatically improve upon this situation by supporting results-oriented 
programs. Additionally, through our partnership with the Federal 
Government, we have been able to leverage significant amounts of local 
dollars--$12.4 million in 2005 alone. Together, we have ended 
homelessness for thousands of men, women, children, and unaccompanied 
youth.
    Over the past two decades we have learned a great deal in Hennepin 
County about what does and does not work to end homelessness. We no 
longer look to shelters as the solution. Instead, we focus on 
preventing people from becoming homeless whenever possible and rapidly 
rehousing them if they do. It costs 10 times more to house and resettle 
a homeless family than to prevent them from losing their housing in the 
first place. Through the support of McKinney-Vento funds, we have 
established one of the best family homeless prevention models in the 
country. In Hennepin County, we work hard to keep people in the housing 
they have. We have learned that prevention is the best and most cost-
effective way to end homelessness.
    When families do become homeless, we work with them through our 
Rapid Exit program to quickly place and support them in permanent 
housing. Rapid Exit is a supportive services program funded by HUD and 
is listed on HUD's website as a national best practice for its 
excellent results and low cost. Through Rapid Exit, Hennepin County 
contracts with highly effective community-based organizations to 
support both clients and landlords, providing housing stabilization 
assistance while maximizing mainstream resources. They provide on-going 
case management to help clients resolve personal issues that are 
barriers to housing while also building on the strengths of their 
clients. As one provider told me, ``Most homeless people are survivors! 
They have the innate strength to be successful and we encourage them to 
use that strength.'' The case managers also assist landlords in 
resolving issues that place the client's housing in jeopardy, cosign 
leases, and provide financial and legal assistance. Providers serving 
as intermediaries with private landlords are the single most effective 
way to recruit and maintain landlords willing to rent to high-barrier 
tenants.
    Our 2005 results far exceeded expectations. During this 1 year 
period, 588 families and 48 chronically homeless adults were placed 
into housing by Rapid Exit. Of the 588 families, 94 percent remained 
out of shelter for at least 12 months. Of the 48 chronically homeless, 
79 percent remained out of shelter for at least 6 months. Additionally, 
30 percent of the families and 60 percent of the individuals increased 
their incomes during the first 6 months in their new housing.
    Through the expansion of our prevention efforts and the Rapid Exit 
program, we have also seen dramatic reductions in the average length of 
stays in our family shelters and the number of parents and children 
sheltered per year. Between the years of 2000 and 2003, we saw a 47 
percent decrease in length of shelter stays for families, a 42 percent 
decrease in the number of parents and children sheltered, and a 70 
percent decrease in the number of shelter beds purchased per year. 
These kinds of results highlight the importance of innovative, results-
oriented practices and our on-going partnership with the Federal 
Government through McKinney-Vento.
    The numbers are good, but the personal stories are the best, like 
the single mom from Illinois who fled from an abusive relationship with 
her four children and came to our county shelter. She struggled with 
finding work, caring for her children, and getting them to school on-
time. Our Rapid Exit worker helped locate a job and an apartment she 
could afford. Now 10 years later, she owns her own modest home, two of 
the children have graduated high school and are attending college, and 
she still calls her case manager every 6 months to proudly report on 
her success.
    The Community Partnership to End Homelessness Act will bring us 
another step forward in our quest to end homelessness and provide 
stable housing for every member of our community. We support the 
consolidation of McKinney-Vento programs, the noncompetitive renewal of 
rent/operating subsidies for permanent housing, the 30 percent 
permanent set aside for individuals and families with disabilities, and 
the recognition of the critical importance of prevention. We are, 
however, concerned with the proposal to curtail certain services after 
3 years. It is critical that services that directly support housing 
placement, coordination with private landlords, and housing 
stabilization remain intact. Our Rapid Exit program depends on 
McKinney-Vento to ensure our continued success--and this, our most 
effective McKinney-Vento program, would be at risk of termination. 
Last, we support increased flexibility within McKinney-Vento funding 
streams. The more creative we can be at the local level, the more 
likely we will be able to end homelessness for people in our 
communities.
    We know what works to end homelessness in our communities. 
Prevention, Rapid Exit, and supportive housing are key ingredients to 
keeping people in housing rather than in shelters and on the streets. 
Reauthorization of McKinney-Vento is critical to our success. I am 
confident that we will end homelessness in Hennepin County by 
continuing our strong local, State, and Federal partnership.
                               ----------
                  PREPARED STATEMENT OF STEVEN R. BERG
                Vice President for Programs and Policy,
                 National Alliance to End Homelessness
                             March 30, 2006
    The National Alliance to End Homelessness would like to thank 
Chairman Allard and Senator Reed for holding this hearing, for inviting 
us to testify, and for introducing S. 1801, the Community Partnership 
to End Homelessness Act. We are looking forward to continuing our 
cooperative work with this Subcommittee.
    We are beginning to change the terms of the conversation about 
homelessness in the United States. Since the summer of 2000, when the 
National Alliance to End Homelessness made public its Ten Year Plan to 
End Homelessness, many people around the country who for years had 
viewed homelessness as endemic are beginning to see that it is a 
problem with a solution. Over 220 cities, counties, and States have 
publicly committed the energy to adopt local and State plans to end 
homelessness. Congress and the Administration have established goals of 
solving important pieces of this problem. Major national media outlets 
have covered the issue, stressing the solution-oriented approaches that 
communities have adopted. And a small number of leading communities, 
those that over several years have carried out commonsensical reforms 
to their approach, are showing quantifiable declines in the number of 
homeless people, even while the numbers go up in most places.
    In this context of change and opportunity, we will discuss the most 
important lessons we have learned about homelessness in recent years, 
the kinds of responses that lead to solutions, and the importance of 
this bill in moving to the next level of progress.
What We have Learned about Homelessness
    Over the past 20 years of concerted efforts to address 
homelessness, and particularly over the past 5 years as we have worked 
to change our approach to the issue, we have improved our understanding 
and programmatic know-how. The following are our most important 
insights.
    HUD McKinney-Vento programs are effective and useful. Often when 
Congress sets out to reauthorize a program, it is because of a 
perception that something is broken. That is not the case here. As they 
have evolved over the past decade under both Republican and Democratic 
leadership, the HUD homelessness programs are effective tools in 
helping communities. In reauthorizing the programs, Congress, instead 
of fixing a broken system, is in a position to take an already strong 
program and jumpstart a new phase of development, looking toward using 
these programs to drive a widespread effort to solve the problem of 
homelessness.
    Managing homelessness and taking care of homeless people is 
essential. Homelessness is damaging to people and communities. It must 
be regarded as an emergency situation that requires a strong response. 
The basic survival needs of homeless people must continue to be met.
    At the same time, we now have the know-how to do more, to end 
homelessness--it is a problem with a solution. The solution to this 
expensive and dispiriting problem is more apparent. It involves four 
elements: Outcome-based planning using reliable data; preventing at-
risk people from becoming homeless; more quickly moving homeless people 
back in to housing; and making some progress on housing affordability, 
incomes and the availability of support services to all low-income 
people.
    We are now at the point where a small number of leading communities 
have put these principles into action over the course of several years, 
and have achieved excellent outcomes in the form of reductions in 
homelessness. In Columbus, OH, family homelessness declined 53 percent 
between 1997 and 2004. In Hennepin County, MN (including Minneapolis), 
family homelessness declined by 43 percent between 2000 and 2004. In 
San Francisco, chronic homelessness declined by 28 percent from 2002 to 
2005. In Westchester County, NY, family homelessness declined by 60 
percent in 2 years. And in New York City, the number of homeless 
children declined by 19 percent in 1 year. As more cities develop 
reliable data systems tracking the number of homeless people, we expect 
to find similar results elsewhere.
    Solutions require aggressive steps by local communities, and 
Federal leadership in providing resources and incentives. Communities 
that have made the most progress have had strong leadership on the 
issue from elected officials, in order to develop a community-wide 
commitment to solving this problem. These communities have responded to 
Federal funding opportunities and incentives to use their funding in 
new ways. To bring these solutions to scale around the country, this 
national leadership is indispensable. The U.S. Interagency Council on 
Homelessness has played an indispensable part in coordinating the 
Federal role and building strong collaborations between the Federal and 
other levels of government.
    The solution is about getting people housed as quickly as possible 
and keeping them housed. ``Housing First'' has become a watchword for 
many of the reforms. Many homeless people have problems, some of them 
extremely severe. Yet, in nearly all cases, the problems are better 
solved after people are provided with housing, whether they be 
stabilizing a mental illness, conquering an addiction, improving 
earning power, or strengthening family relationships. Trying to solve 
these problems for people while they are homeless is extremely 
difficult.
    Interestingly, Housing First is responsive to the expressed desires 
of homeless people. When asked in a major Federal survey what would be 
most helpful to them, the most common responses by far from homeless 
people were help finding housing, and help finding a job so they could 
afford housing.
    The homeless system cannot do it by itself. Mainstream systems and 
indeed the entire community need to make it their project. 
Collaboration is key. The homeless system does not have the ability by 
itself to prevent people from becoming homeless on a large scale. 
Fortunately, by far the majority of people who become homeless are 
eligible for help from extensive systems of care directed toward low-
income people in general. In fact, many who become homeless were 
previously residents of government-funded institutions--hospitals for 
people with mental illness, child welfare, and foster care agencies, 
jails and prisons. This provides the opportunity for government to do a 
better job of ensuring stable housing.
    The homeless services system also does not have the capacity to 
provide large quantities of new housing, at the scale necessary to end 
homelessness. The small amount of permanent housing that the homeless 
system can afford to fund must be directed toward those least likely to 
be housed in any other manner. Meanwhile, market-based approaches and 
mainstream housing programs must be used more aggressively and targeted 
toward those least able to afford housing without intervention.
    Homeless people are a diverse group and there need to be 
interventions appropriate to all. This is especially the case regarding 
how much supportive services are needed to get and keep people housed. 
The stereotype of a homeless person who lives on the streets year after 
year at the mercy of severe mental illness often combined with 
addiction is only too accurate for many people. Supportive housing, 
discussed below, is crucial for people who fit this pattern, and has 
excellent results. On the other hand, most people who experience 
homelessness have problems that are largely economic in nature, 
combined with thin social supports. The help they need to achieve 
housing stability is relatively modest--communities have had very good 
results with programs that build relationships with local landlords, 
help people fix credit problems, and perhaps provide a small amount of 
financial help for security deposit and initial rent, with referral to 
mainstream programs that help with employment stability.
    The hardest to serve often do not get served. For most of the time 
the HUD McKinney-Vento programs have been in effect, a certain portion 
of the funding was explicitly directed by the Federal Government to 
permanent housing for homeless people with disabilities. The exception 
was a 5-year period in the late 1990's, when HUD developed the 
``Continuum of Care'' model allowing communities to exercise more 
centralized control over what projects would be funded. The Continuum 
of Care improved the system in many ways; but during this short period, 
spending on permanent housing for homeless people with disabilities 
fell precipitously. While it is unclear why this occurred, the 
possibilities include the difficulty of carrying out supportive housing 
projects, particular the difficulties siting permanent housing for 
people with mental illness, a well-documented phenomenon. The 
bipartisan enactment by Congress of a floor of 30 percent on spending 
for permanent housing brought the system back into balance.
The Right Models are Proven Cost-Effective Interventions that Work
    Leading communities are already answering the question of the right 
kinds of models that flow from these lessons. The following describes 
the most effective approaches.
    Supportive Housing. ``Supportive housing'' is a generic term 
describing housing where the rent is subsidized, and where treatment 
and support services are provided to those who live in the housing. 
This kind of housing can include everything from large apartment 
buildings dedicated to this use, to scattered site programs where rent 
subsidies are paid to for-profit landlords and visiting teams provide 
services and treatment.
    This model is particularly designed for homeless people with the 
most severe problems, including mental illness and addiction. Careful 
research has demonstrated that such housing can be provided to homeless 
people with mental illness at virtually no cost to the taxpayer, 
because people who leave the streets in favor of supportive housing 
reduce sharply their use of expensive emergency services such as 
psychiatric emergency hospitals and detoxification facilities, as well 
as jails and shelters.
    The proven success of permanent supportive housing has driven the 
campaign to end chronic (long-term) homelessness. The research on 
homelessness and housing for people with mental illness has provided 
strong incentives to State mental health systems to prevent 
homelessness among their clientele. A push to rehouse those who are 
already homeless can reduce the incidence of homelessness among people 
with severe mental illnesses to minimal levels.
    Emerging conclusions on families. Approximately half a million 
families with children become homeless in the United States each year, 
and a similar number leave homelessness each year and reenter housing. 
But at any given time approximately 100,000 families are homeless, 
staying in shelters, ``welfare hotels,'' cars, abandoned buildings and 
outside. Because of the greater numbers and the wider range of 
circumstances, a scenario for ending family homelessness has been more 
difficult to develop than has a solution for chronic homelessness. 
Thanks to the leadership of communities like Minneapolis, Columbus, and 
New York, however, the scenario is becoming increasingly clear.
    Because of high rates of entry into and exit from the homeless 
system among families, prevention is especially important. Successful 
prevention programs involve outreach to find families that are on the 
brink of homelessness; work with landlords and short-term financial 
assistance to stave off evictions; and social and employment services 
to stabilize circumstances and improve incomes and the ability to pay 
rent. Some communities target these resources to neighborhoods from 
which homeless families most often arrive in the shelter system. In New 
York City, shelter entry data is fed back to prevention programs to 
help tailor outreach and services to the kinds of families that are 
being missed.
    Housing First is a key element for progress on ending homelessness 
for families. It involves developing close working relations with 
landlords, combined with financial assistance so that homeless families 
can be quickly placed into housing. The vast majority of families that 
experience homelessness are facing problems of an economic nature--they 
are those with the lowest incomes, and probably those that lack strong 
social support networks. Interventions that focus on these barriers are 
the most effective.
    Services after placement in housing are another piece of the puzzle 
for families. Services must be evaluated based on their impact on 
housing stability. Intensive employment services are used in the most 
successful communities, so that families can afford rent. The ability 
to intervene if there are landlord-tenant problems is effective.
    Finally, data and planning are essential in communities that are 
succeeding at ending family homelessness. Data systems identify cost-
effective solutions, help fine-tune interventions, and allow a focus on 
performance.
    Recognizing different issues in rural areas. There are significant 
problems of homelessness in rural areas. While the basic approaches of 
prevention and rapid rehousing apply in rural areas, they will take 
different forms. Few rural communities will be able to support programs 
dedicated exclusively to addressing homelessness--many will rely on 
structures that address poverty or development more generally. Market-
based approaches to housing the lowest-income people will be 
particularly important.
    System-level outcome orientation. The most important reforms are 
taking place at the level of local systems. Leaders have put into place 
outcome-based systems that reward individual programs for achieving the 
best results. A key intervention has been a system of matching 
individual homeless people and families to programs that provide a 
level of support services that is appropriate--enough to overcome 
barriers to housing stability, while not so much as to hamper cost-
effectiveness or delay exit from the homeless system.
This Bill is a Positive Reaction to this Know-How
    The approach to McKinney-Vento reauthorization that is adopted by 
the Community Partnership to End Homelessness Act would have a positive 
impact.
    The existing program combines the best aspects of a block grant and 
a competitive program, and the bill improves both parts. As noted 
recently by the Office of Management and Budget, the HUD homelessness 
programs combine the best aspects of a block grant and a competitive 
program. This bill would improve both aspects.
    The bill simplifies the system by consolidating three programs. It 
provides communities with more flexibility. It gives communities the 
resources and authority to move their homeless system in the direction 
it needs to go in order to get better results.
    At the same time, the bill makes the overall program more outcome-
oriented. It provides financial rewards to communities that work most 
effectively and achieve the best results.
    The bill provides the necessary incentives to meet the needs of the 
hardest to serve. The bill retains the approach adopted through the 
appropriations process for the past 8 years, requiring that 30 percent 
of appropriated funds nationwide be used for permanent housing for 
people with disabilities. This is a balanced approach that ensures that 
the most severely disabled homeless people will secure what they need, 
while leaving substantial resources for other parts of the homeless 
population.
    The bill includes an appropriate balance between getting people 
housed and meeting emergency needs. As has been HUD's practice in 
recent years, the bill allows 15 percent of appropriated funds to the 
Emergency Shelter Grants program; and allows the use of bonuses to 
communities that develop permanent housing. For the first time, the 
bill allows program funds to be used for permanent housing for homeless 
people without disabilities.
    The bill includes strong incentives for collaboration and 
involvement of mainstream funding. The criteria for competitive awards 
includes the ability to involve mainstream systems in planning and 
coordination, and to leverage mainstream dollars as part of the 
homelessness system. This approach, already used by HUD in its 
administration of the current programs, has a great impact on improving 
the quality of the system.
    The bill allows additional investment in prevention. It retains 
prevention as an eligible activity for the Emergency Shelter Grants 
program, while allowing a small portion of the competitive grant 
programs to also be used for prevention. It is extremely important 
nonetheless to avoid encouraging communities to see preventing 
homelessness as the exclusive responsibility of homelessness programs, 
rather than mainstream programs.
There are Issues that will Require Further Exploration
    Does the capacity exist at the local level to undertake the 
planning, evaluation, and other functions? Is the funding for those 
activities appropriate? The bill increases the expectations places on 
those entities that run the local homeless systems, and provides 
additional administrative funding. Consultation with local communities 
should focus on whether capacity exists for immediate implementation of 
these expectations, and whether the amount of administrative funding is 
sufficient.
    Does the bill have appropriate expectations regarding leveraging 
other resources? Matching requirement in the current system are a 
hodgepodge of different requirements. The bill simplifies this system 
with a uniform requirement of a 25 percent cash match for each program 
operator. The important thing is to ensure that clients have access to 
mainstream services. It is less important that the cash to pay for 
those services pass through the bank account of the entity operating 
the HUD-funded program. There has been support in Congress for a 
provision allowing the value of in-kind services to count toward a 
match requirement where there is a memorandum of understanding with the 
entity providing the services. Solutions such as this should be 
explored.
    Does the bill take the right approach to the need for capital, 
housing operating funding, and services including rehousing services? 
The provision of the bill limiting program funding of support services 
after 3 years has proven to be controversial, especially in light of 
growing understanding of how support services stabilize housing for 
homeless people. The percentage of HUD homeless funding going toward 
support services has declined since earlier versions of this bill were 
introduced. Meanwhile, there have been no new Federal initiatives to 
provide new funding for support services for homeless people. 
Revisiting these provisions may be appropriate.
    It is important to note that a bipartisan bill, the Services to End 
Long-Term Homelessness Act, has been introduced. This bill would 
partially solve the problem of insufficient resources for support 
services for homeless people, by creating a funding stream from the 
Department of Health and Human Services that would match up well with 
the HUD services that are the subject of this bill. The National 
Alliance to End Homelessness strongly supports SELHA.
Conclusion
    The National Alliance to End Homelessness is proud to support the 
Community Partnership to End Homelessness Act. We look forward to 
continued debate to allow all affected interests to be heard. We 
believe that such a consensus-oriented approach can produce a final 
product that would move our collective efforts on homelessness forward, 
while attracting support from a wide range of interests. A real 
opportunity exists to make progress.
                               ----------
                 PREPARED STATEMENT OF CHARLES W. GOULD
               National President, Volunteers of America
                             March 30, 2006
    Chairman Allard, Ranking Member Reed, and Members of the 
Subcommittee, thank you for inviting me to testify this afternoon. My 
name is Charles W. Gould, and I serve as the National President of 
Volunteers of America.
    Volunteers of America is a national, nonprofit, faith-based 
organization that is dedicated to helping those in need rebuild their 
lives and reach their full potential. Through thousands of human 
service programs, including housing and healthcare, Volunteers of 
America helps nearly 2 million people in over 400 communities. Since 
1896, our ministry of service has supported and empowered America's 
most vulnerable groups, including at-risk youth, the frail elderly, men 
and women returning from prison, homeless individuals and families, 
people with disabilities, and those recovering from addictions. Our 
work touches the mind, body, heart--and ultimately the spirit--of those 
we serve, integrating our deep compassion with highly effective 
programs and services.
    In the context of today's hearing, our interventions both prevent 
and end homelessness, in urban and rural communities across the 
country. Last year, we provided assistance to over 80,000 homeless 
children, youth, and adults. We are working to end homelessness in 
almost every State represented by a Senator on this Subcommittee--and 
on the full Committee on Banking, Housing, and Urban Affairs.\1\
---------------------------------------------------------------------------
    \1\ See Appendix for a summary description of Volunteers homeless 
programs in States represented by Members of the Subcommittee.
---------------------------------------------------------------------------
    As the only representative of a homeless service provider 
testifying today, my comments and recommendations reflect the views of 
our staff from around the country--the people who are on the ground, 
every day, working to end homelessness. I will begin with lessons 
learned in the 20 years since the passage of the McKinney-Vento Act, 
and from those lessons will draw a series of recommendations for how to 
most effectively reform the U.S. Department of Housing and Urban 
Development's (HUD's) homeless programs. We have a significant 
opportunity before us--the opportunity to closely reexamine every 
portion of the McKinney-Vento programs, and of the Federal, State, and 
local partnership to prevent and end homelessness. We should take 
advantage of that opportunity.
    McKinney-Vento's housing programs have not been reauthorized since 
1994. Since that time, Volunteers of America has significantly 
broadened our understanding of how to provide cost-effective housing 
and supportive service interventions to prevent and end homelessness 
for all populations. Based on this understanding, the time is right for 
a complete reauthorization and streamlining of HUD's McKinney-Vento 
programs. By consolidating current programs, broadening the list of 
eligible activities, focusing on homelessness prevention and expanding 
the population to whom housing and services can be provided, 
reauthorization will allow local communities to take full advantage of 
the best practices developed over the past 20 years.
    Reauthorization will also ensure that Congress makes important 
decisions about the structure and emphasis of Federal homeless 
programs. Over the past 12 years, lack of input from Congress has led 
to HUD making significant policy changes through the annual Notice of 
Funding Availability (NOFA) process. Volunteers of America has not 
always been comfortable with this approach, which has often appeared to 
be ``legislation by NOFA.'' Making abrupt policy changes in a February 
or March NOFA, with applications due in May, does not allow communities 
the certainty and consistency they need to implement long-term plans to 
end homelessness.
Twenty Years of McKinney-Vento--Lessons Learned
    I want to highlight three important lessons that Volunteers of 
America has learned in the 20-year period since McKinney-Vento was 
first passed: (1) McKinney-Vento programs are no substitute for 
``mainstream'' housing and social service programs or systems of care; 
(2) Family homelessness has significantly increased; and (3) Both 
permanent and transitional housing can be effective tools to end 
homelessness. I will follow my discussion of these ``lessons learned'' 
with Volunteers of America's policy recommendations for S. 1801--the 
reauthorization bill that is currently before this Subcommittee.
McKinney-Vento Programs are no Substitute for ``Mainstream'' Housing 
        and
Social Service Programs or Systems of Care
    Americans are homeless for many reasons. However, over the past 20 
years it has become clear to Volunteers of America that many people 
become homeless due to the failure of Federal and State ``mainstream'' 
programs or systems of care to meet their needs. These ``mainstream'' 
programs and systems can be defined as interventions designed to assist 
all low-income Americans--not just persons experiencing homelessness.
    In recent years, we have discovered just how these programs can 
contribute directly to homelessness. Here are some examples. When 
funding for Section 8 and other affordable housing programs is reduced, 
and affordability requirements on other housing units are allowed to 
expire, individuals and families will not find alternative affordable 
housing in their communities, and many will become homeless. When 
eligible low-income persons are incorrectly denied Temporary Assistance 
for Needy Families (TANF) ``welfare'' or Supplemental Security Income 
(SSI) disability benefits, they lose their ability to afford housing, 
and many will become homeless. When people are discharged from mental 
health or substance abuse treatment facilities, jails, prisons, or 
foster care, and no provisions are made to ensure that they receive 
appropriate housing and healthcare, many of them will become homeless. 
And when people cannot access mental health or substance abuse 
treatment, they lose jobs and other social supports. Many of these 
people will become homeless.
    Unfortunately, none of these statements are hypothetical. Over the 
past 20 years, we have repeatedly seen funding cuts for affordable 
housing programs, incorrect denials of eligibility for public 
assistance, lack of discharge planning, and inability to access 
community based services--and these failures of ``mainstream'' programs 
have directly resulted in homelessness.
    Ensuring access to public benefits and treatment, and ensuring 
adequate discharge planning, is costly and complicated--there is no 
question about it. However, the moral and economic cost of not doing so 
is far greater. Intervening to end homelessness is considerably more 
expensive than ensuring that we prevent it, and preventing homelessness 
must be our primary social objective--so no individual or family spends 
time on the street or in emergency shelter.
Family Homelessness has Significantly Increased
    When the McKinney-Vento Act was first passed, homelessness was 
viewed mainly as an urban issue--a problem of people, mainly single 
individuals, living on the streets. And as all of us who live here in 
Washington, DC know, we do not have to go more than a block or two away 
from the Dirksen building to see that street homelessness continues to 
exist. There is no question that we must do a better job of ending 
homelessness for people who live outdoors.
    But what we have seen over the last 20 years is that there is 
another face of homelessness--both in cities around the country, and in 
suburban and rural areas. Much of this population consists of homeless 
families with young children. We now know that each year, over one 
million children are homeless. Homeless children lag behind their 
housed peers in almost every significant indicator of child well-being, 
including early childhood development, educational performance, health, 
and well being. As a result, many of these children are likely to grow 
up to be the next generation of low income, poorly housed, and homeless 
adults. We must reform HUD's homeless programs to take better care of 
our Nation's homeless families, while continuing to seek an end to 
street homelessness.
    Many of these families enter emergency shelters, and eventually 
receive transitional housing or other assistance. However, too many 
homeless families remain on the margins. In rural areas and many 
suburbs, emergency shelters may not exist or may be full. In urban 
areas where shelters do exist, parents often do not want to subject 
their children to overcrowded congregate living facilities. These 
families are doubled up with friends or family, or living in short term 
inexpensive hotels or motels. Nobody would choose to live in these 
hotels or motels--whole families must coexist in one room, with no 
cooking facilities, no access to public transportation, and no place 
for children to play. Families move back and forth between these 
settings, making it almost impossible to keep children in school. Make 
no mistake about it--these living situations are involuntary, and these 
families are homeless. HUD's homeless programs must assist them.
Both Permanent and Transitional Housing can be Effective Tools to End
Homelessness
    In 1987, many people believed that homelessness could be ended by 
providing emergency shelter that would allow people to ``get back on 
their feet.'' Today, Volunteers of America understands that this 
generalization does not apply to most homeless populations.
    There is no question that 10 to 15 percent of homeless persons have 
severe disabilities, due to physical, mental, and substance use 
impairments. Both single adults and families with children can be found 
among this population. Many members of this group have spent 
significant time living on the streets or in emergency shelters, and 
under today's terminology are identified as ``long-term'' or 
``chronically'' homeless. The ``chronic'' homeless population needs 
permanent supportive housing--a combination of housing and intensive 
services where individuals and families are not time limited, and can 
remain for as long as they need to.
    Volunteers of America is a major provider of permanent supportive 
housing. And in response to the Federal initiative to end ``chronic'' 
homelessness, we are working to produce more--in partnership with 
groups like the Corporation for Supportive Housing. This initiative 
must continue. However, permanent supportive housing addresses the 
needs of no more than 15 percent of the homeless population. Volunteers 
of America is equally committed to intervening on behalf of the other 
85 percent of homeless Americans, and our reauthorization 
recommendations will detail ways in which HUD's homeless programs can 
be realigned to best serve this large and ever growing group.
    Although some members of every homeless sub-population will need 
permanent supportive housing with intensive services, a large group 
will not. Many single homeless adults and homeless families with 
children fall into this category. Still others are runaway youth, or 
youth aging out of foster care. It is easy to say that all these 
individuals and families need is access to ``affordable housing''--
although such housing does not exist in most communities. And indeed, 
in some cases, this is accurate.
    Volunteers of America is a leading provider of quality affordable 
housing, and we have made affordable housing development and 
preservation our top organizational priority. We urge the Banking 
Committee to help us make good on this commitment, by supporting the 
creation of an ``Affordable Housing Fund'' through the GSE reform 
bill--S. 200. By helping Volunteers of America and other nonprofits 
provide new units of affordable housing, passing this legislation would 
result in a decrease in homelessness.
    But many of these homeless individuals and families can benefit 
from a shorter-term intervention that comes with supportive services. 
That intervention, in most cases, is transitional housing. Transitional 
housing is limited to 2 years, and focuses on providing individuals and 
families with the support they need to become self-sufficient. 
Unfortunately, in recent years, the Administration and many advocacy 
organizations have been critical of transitional housing, asserting 
that it amounts to managing homelessness--not ending it. This assertion 
could not be more incorrect.
    Transitional housing, in fact, is an extremely successful and cost-
effective way to provide individuals and families with the helping hand 
they need to obtain stable permanent housing through the private market 
or through mainstream HUD subsidized housing programs. Given the 
limited funds available to homeless assistance programs, reducing the 
role of transitional housing in ending homelessness is unwise.
    It is important to understand that transitional housing has 
significantly evolved since 1987. Years ago, transitional housing meant 
congregate living without as many supportive services as are provided 
today. Individuals or families with different needs were put into the 
same programs. As a result, many people ended a 2-year housing 
placement having no more ability to secure permanent housing than they 
did upon program entry.
    Now, however, ``best practice'' transitional housing looks 
different. If housing is provided at a single site, it is usually in 
the form of individual apartments, with their own living and cooking 
facilities. And transitional housing providers have specialized 
services interventions for different populations--families fleeing 
domestic violence, families with a parent who is returning from 
incarceration or from mental health or substance use treatment, 
homeless veterans needing job training, or youth who have either run 
away from unstable family situations or aged out of foster care.
    In many cases, transitional housing is provided in scattered site 
apartments where tenants remain permanently housed without McKinney-
Vento funded subsidies after 2 years--a model called ``transition in 
place.'' This model is successful at ending homelessness, and when 
rental subsidies move to a new individual or family at least every 2 
years (often much more frequently), it is cost effective for HUD by 
allowing limited funding to benefit more people. A consolidated 
homeless program must incentivize this efficient housing intervention.
Volunteers of America Policy Proposals for S. 1801--The Community
Partnership To End Homelessness Act of 2005
    I wish to thank Chairman Allard, Ranking Member Reed, and other 
Members of the Subcommittee for the hard work they have put into the 
drafting of S. 1801--the Community Partnership to End Homelessness Act 
of 2005. Volunteers of America believes that S. 1801 provides a strong 
framework for the reauthorization discussion that we have engaged in 
over the past several years, and continue to engage in today. The 
following policy proposals are indicative of our strong support for 
particular provisions of S. 1801, while also offering recommendations 
for significant improvements to the bill.
Support Cost Effective Homelessness Prevention Initiatives
    Volunteers of America strongly supports the provisions of S. 1801 
relating to homelessness prevention. The first of two provisions would 
continue to allow up to 5 percent of Emergency Shelter Grants (ESG) 
(distributed to States and localities) to be used for homelessness 
prevention by providing short-term rental assistance to avoid 
evictions. The second provision would allow 5 percent of CHAP funds to 
be spent on a broader array of prevention activities--including 
eviction prevention, relocation assistance for people being discharged 
from public institutions, assistance in reunifying homeless youth with 
their families, and aid to help reconnect homeless children in the 
child welfare system with their parents and guardians.
    Homelessness prevention is both better for people and financially 
less costly than allowing individuals and families to live on the 
streets or in emergency shelter--we are pleased to see that this 
understanding has been adopted in the drafting of S. 1801.
Prevent Discharges into Homelessness
    HUD funded permanent housing has long served applicants coming from 
the streets, emergency shelter, transitional housing, and treatment 
programs or other institutions. However, in the 2005 NOFA HUD announced 
that future permanent housing renewal projects would only be able to 
accept residents coming from transitional housing if they originally 
came from emergency shelter or from the streets. This prevents 
permanent supportive housing projects from housing individuals who may 
have become homeless after being discharged from jails, prisons, 
alcohol or drug treatment programs, or other public institutions. In 
order to receive permanent housing assistance, people leaving these 
settings would first have to suffer the indignity of becoming homeless, 
by living on the streets or in an emergency shelter--even if a 
permanent housing bed was immediately available.
    Volunteers of America believes that this policy change is unwise--
particularly since HUD has recently released an exploratory study on 
homeless prevention which found that one of the most effective 
strategies was ``supportive services coupled with permanent housing, 
particularly when coupled with effective discharge from institutions.'' 
We know that reentry housing prevents homelessness--HUD should 
encourage it, not disfavor it.
    In addition, this HUD policy weakens community control over who can 
be assisted through local homeless programs. Since local service 
providers and advocates best understand who is homeless and in need of 
assistance in their cities and towns, a policy that ties their hands 
contributes to inefficient use of scarce homeless program resources.
Provide Service Providers with the Flexibility Needed to Assist All 
        Homeless
Populations
    In keeping with our strong support for keeping homeless individuals 
and families from ever having to live on the streets or enter emergency 
homeless shelters, Volunteers of America has long believed that 
McKinney-Vento's definition of who is homeless should be expanded to 
include people who are living in doubled up situations, or in hotels or 
motels, solely due to the lack of adequate alternative housing. We 
support this change by virtue of what our local office staff from 
around the country tell us. They report that their Continuums of Care 
would like to provide assistance to individuals and families living in 
these precarious situations--before they are forced onto the streets or 
into a shelter. However, under the current definition of homelessness, 
they must wait. S. 1801, as currently drafted, does not address this 
issue.
    It is important to realize that living doubled up or in a hotel or 
motel is not a safe or stable situation, where an individual or family 
might choose to remain for lengthy periods of time. Instead, doubled up 
families often bounce between the homes of various friends and 
relatives--never staying in one place for more than a month or two--
before they wear out their welcome and are forced to move on. This 
highly mobile and unstable lifestyle is particularly difficult for 
children--it leads directly to poor educational achievement and 
behavioral problems. Expansion of the definition of homelessness would 
allow communities who have large numbers of these highly mobile 
families to provide them with the assistance necessary to enter stable 
housing.
Include Homeless Families in the Definition of ``Chronic'' Homelessness
    HUD's current definition of ``chronic'' homelessness permits only 
single individuals to be considered under that category. This 
definition, however, does not appear in McKinney-Vento--it was created 
by the Administration. Volunteers of America strongly urges Congress to 
codify an amended definition. Such an amendment would expand the 
definition of ``chronic'' homelessness to include families where either 
the head of household or a child in the household is disabled.
    As currently worded, S. 1801 would only include families with 
disabled heads of household. Volunteers of America supports this 
language, as does almost every homeless advocacy or service 
organization. When an adult meets the criteria for being 
``chronically'' homeless, why should that person not be able to receive 
permanent housing assistance, simply because they are living with one 
or more minor children. If anything, the presence of a child in the 
household creates an additional reason to provide that family with 
permanent housing.
    Volunteers of America would also go slightly farther, to include 
families where the disabled individual is a child. Like other families 
who have been homeless repeatedly or for one lengthy stretch, these 
families need long-term housing and supports. We should give 
communities the flexibility to provide them with permanent housing, if 
the need for such housing can be demonstrated.
Incentivize Successful Permanent and Transitional Housing
    Volunteers of America believes that HUD homeless programs should 
incentivize a range of housing interventions that are successful at 
ending homelessness. Currently, HUD has administratively chosen to 
provide significant incentives for the development of permanent housing 
through McKinney-Vento. The permanent housing ``bonus'' essentially 
diverts all new funding for the homeless programs into a bonus for 
communities who develop permanent housing for ``chronic'' homeless 
individuals.
    We support S. 1801's continued incentives for permanent housing, 
which maintain the current bonus, while adding a bonus for permanent 
housing to assist non disabled homeless families. However, Volunteers 
of America would add an additional activity that is eligible for bonus 
money--cost effective transitional housing targeted to particularly 
vulnerable populations. These populations could include families 
leaving domestic violence situations, parents reuniting with children 
leaving foster care, or families with extremely young children. In 
addition--Volunteers of America believes that receipt of bonus money in 
a community, for a particular type of housing, must be conditioned on 
the community's ability to demonstrate, through their required gaps and 
needs analysis, that there is a need for such housing.
    These changes will balance the current bonus structure, where 
permanent supportive housing for single ``chronic'' homeless 
individuals is the only eligible activity. Because every community can 
use additional homeless program funding, this structure pressures 
communities that do not have a significant ``chronic'' homeless 
population to ``write to the grant'' and devise projects to serve that 
population, simply to get bonus money. It would be a far more effective 
use of Federal funds to provide bonus money that meets demonstrated 
local needs.
Ensure Continued Access to Supportive Services
    It is well established that ending homelessness requires a 
combination of housing and supportive services. This is why in 1987 
McKinney-Vento authorized HUD to fund services, and why HUD has 
consistently done so. In recent years, HUD has undertaken significant 
efforts to fund more housing, and fewer services. Provisions contained 
in S. 1801 would go too far in continuing this trend.
    S. 1801 would allow the Government Accountability Office (GAO) to 
make a determination, 3 years after enactment, that certain Federal 
mainstream services programs (such as the Substance Abuse and/or Mental 
Health Block Grants) were receiving additional funds. If that 
determination occurred, the HUD Secretary would have discretion to stop 
funding supportive services not directly tied to maintaining housing--
potentially to include mental health and substance abuse services. 
Volunteers of America does not believe that this is a wise policy.
    As I referenced earlier, mainstream programs do not serve homeless 
persons well. So additional funding for these programs does not mean 
that additional funds will go to homeless persons. Therefore, it is 
inappropriate to condition homeless program funding for services on how 
mainstream programs are funded.
    Volunteers of America would prefer to see HUD and HHS work together 
to determine an efficient way for HHS to fund additional supportive 
services for homeless programs. This solution would require additional 
resources, but would best achieve the goal of having HUD--the Federal 
Government's housing agency--fund more housing. We regret that HUD and 
HHS have yet to reach agreement on this matter, and hope that the U.S. 
Interagency Council on Homelessness (USICH) will be able to facilitate 
an accord.
Require Coordinated Federal, State, and Local Planning to End All 
        Homelessness
    Over the past 4 years, the USICH has strongly encouraged State and 
local governments to create plans to end ``chronic'' homelessness in 10 
years. And in the just released HUD NOFA, Continuums of Care must 
coordinate their plans with these State and local plans if they want to 
receive the maximum number of points for strategic planning.
    Volunteers of America supports the idea of planning to end 
homelessness. We believe, however, that this planning must start with 
the creation of a Federal strategic plan to end homelessness--not just 
``chronic'' homelessness but all homelessness. We are pleased that the 
development of such a plan, by the USICH is required under S. 1801.
    Similarly, we believe that it is a mistake for the USICH to insist 
that State and local plans focus only on ``chronic'' homelessness. If 
all levels of government are going to engage in planning around the 
issue of homelessness, then the resulting plans should focus on ending 
homelessness altogether--with specific strategies for ``chronic'' 
homelessness, family homelessness, and youth homelessness, or 
homelessness among any other subpopulation found in that State or 
locality.
    This would allow State and local plans to be in alignment with the 
gaps and needs analysis that each Continuum of Care is required to 
prepare every year, and would alter the current inequitable system--
under which communities with little to no ``chronic'' homelessness are 
still forced to plan for ending it, even as they receive little credit 
for demonstrating a need to assist other homeless populations and 
putting together a comprehensive strategy to meet that need. Volunteers 
of America strongly supports the provision in S. 1801 that would 
instruct the USICH to encourage these broader State and local plans to 
end all homelessness.
    We would also note that plans to end homelessness are only as good 
as the resources available to implement them. So while we are pleased 
that many local plans are succeeding in encouraging State, local, and 
private investment, we believe that the Federal Government must set an 
example by providing adequate funding for McKinney-Vento programs and 
``mainstream'' housing and supportive services programs.
Consolidate HUD's Homeless Assistance Programs
    I will not devote significant time to this recommendation, as it 
appears to have nearly unanimous support--both in Congress and among 
service providers and other homelessness advocates. But, in brief, HUD 
now operates three competitive homeless assistance programs--Shelter 
Plus Care (SPC), which provides permanent housing for individuals with 
disabilities and families where the head of household has a 
disability--Supportive Housing Program (SHP), which provides both 
transitional and permanent housing, as well as supportive services--and 
Section 8 Moderate Rehabilitation, which provides funds to nonprofits. 
Nonprofits then combine these resources with Low Income Housing Tax 
Credit (LIHTC) or some other source of housing production dollars, and 
rehabilitate buildings to be used as Single Room Occupancy (SRO) 
housing.
    Since both SPC and SHP have five sub-programs, program 
consolidation would take a total of 11 programs and turn them into one 
program--the Community Homeless Assistance Program (CHAP). This single 
program would have a lengthy list of eligible activities, allowing 
funds to be used for all current activities, and several new ones--
including permanent housing for homeless families without a disabled 
head of household. Volunteers of America strongly supports this 
initiative, as proposed in S. 1801.
Include Administrative Provisions to Help Service Providers
    I want to conclude by offering our strong support for several 
administrative changes to McKinney-Vento. S. 1801 as currently drafted 
requires a 25 percent cash match for almost all housing and supportive 
services programs funded through McKinney. As service providers, we 
would prefer that there be no match requirement. However, we understand 
the importance of having a match, in order to most efficiently leverage 
funds. But in order to make the match requirement less onerous, we 
recommend that a service provider be allowed to satisfy it either with 
cash or in-kind resources. In-kind contributions such as mental health, 
substance abuse, or other supportive services are of equal value to 
cash, and are often significantly easier to obtain.
    We also recommend that, as S. 1801 mandates, HUD be required to 
create a formal appeals process for communities who believe that the 
scoring of their NOFA applications was incorrect. Mistakes do happen, 
and there should be a formal process in place to correct them. The 
current system does not specify any appeal procedure, which means that 
appeals are made on an ad hoc basis, and there are no specified 
standards for evaluating them.
    Thank you again for inviting me to testify today. I look forward to 
answering your questions.
                               ----------
                   PREPARED STATEMENT OF ANTHONY LOVE
  President/CEO, Coalition for the Homeless of Houston/Harris County, 
                                  Inc.
                             March 30, 2006
    Good afternoon. Thank you for inviting the Coalition for the 
Homeless of Houston/Harris County to testify in support of the 
reauthorization of the McKinney-Vento Homeless Assistance Act.
    The Coalition for the Homeless of Houston/Harris County, known as 
the Coalition, is a private, nonprofit organization whose mission is to 
educate and advocate for the needs of persons who are homeless through 
support and the coordination of services. Founded in 1982, at the 
request of then-City of Houston Mayor Katherine Whitmire and then 
Harris County Judge Jon Lindsey, the Coalition was formed to support 
those entities that provide direct support to people that are homeless 
through advocacy, education, collaboration, and community partnerships.
    The Coalition currently serves as the lead coordinator for the 
local Continuum of Care system. We serve in this role through the 
support and partnership with the City of Houston and Harris County. 
This ``Collaborative'' was developed in 1992. The foundation of this 
process is based on two principle concepts, implementation and 
evaluation. Under the guidance and coordinating efforts of the 
Collaborative Continuum of Care approach, Houston/Harris County's 
strategy became a model that HUD used to encourage other jurisdictions 
to develop. Last year, our local Continuum of Care provided funding for 
27 agencies representing 62 programs/projects that span the spectrum of 
outreach, emergency shelter, transitional housing and, of course, 
permanent housing.
    In Houston/Harris County, prior to Hurricanes Katrina and Rita, 
there were 12,000-14,000 men, women, and children without a place to 
call home on any given night. Last year, approximately 34,000 
individuals accessed homeless services in our community. All of these 
services represent McKinney funded agencies that function as the 
existing system to exit homelessness in Houston/Harris County. Since 
1992, McKinney-Vento Homeless Assistance Funding has been the major 
source of funding for the majority of homeless service agencies in 
Houston/Harris County. This funding has provided housing, employment, 
and other essential services to tens of thousands of individuals who 
have experienced homelessness in our community.
    McKinney-Vento for years has served as the impetus for 
collaboration and community solutions to ending homelessness. McKinney-
Vento has enabled many communities to leverage millions of dollars in 
private funding and investment while also providing housing 
opportunities to thousands of low-income Americans who otherwise may 
not be able to afford housing of any sorts. On the other hand, the 
current bill being considered, would enhance the Acts' ability to serve 
more people who are at risk of being homeless, realize that any 
reduction in HUD service dollars will not take place until adequate 
alternative funding is provided and expand who qualifies as chronically 
homeless.
    The Coalition supports this bill in its entirety, especially the 
following three items:
    Provision of Funding for Preventing Homelessness: By allowing 
communities to use up to 5 percent of their grant funding to prevent 
homelessness, a huge barrier to ending homelessness is significantly 
reduced. This provision truly provides a means of ``closing the front 
door'' to homelessness. A continuum is incomplete without prevention as 
a part of the Collaborative process to create a seamless system of 
service.
    Involvement of More Federal Agencies: One agency should not be 
expected to do it all or bear the burden of ending homelessness in our 
country. This measure ensures that multiple Federal agencies are 
involved in the provision of housing, healthcare, human services, 
employment, and other services as necessary and appropriate. Adjusting 
the role of the Interagency Council on Homelessness provides a 
nationally coordinated effort to complement local and State efforts. It 
also makes the issue of homelessness a national priority and serves as 
encouragement to local communities that this issue will remain 
important nationally.
    Broader Definition of Chronically Homeless: The current definition 
of chronically homeless is restrictive and disallows much needed 
services to individuals and families who also demand much from the 
current homeless assistance system. This new definition is more 
inclusive than the current definition because it includes families who 
have an adult head of household with a disabling condition, and people 
who are homeless other than only those that are sleeping in an 
emergency homeless shelter or in a place not meant for human 
habitation. This definition provides a more accurate picture of the 
individuals and families that are served by these community agencies 
every day.
    Again, the Coalition supports this legislation; however we are 
concerned about the 25 percent match requirement and its possible 
effect on smaller non profits and their ability to apply for these 
funds. We are not opposed to this provision, but we are uneasy about 
the possible consequences and wonder aloud, what type of barrier does 
this requirement create for smaller agencies that perform at a high 
level with a smaller budget?
    Once again, I thank you for your invitation and this opportunity to 
speak on behalf of the Coalition. The Coalition supports your efforts 
to reauthorize the McKinney-Vento Homeless Assistance Act and the 
critical resources it will provide to communities in their efforts to 
end homelessness.
                               ----------
          PREPARED STATEMENT OF DENNIS PATRICK CULHANE, Ph.D.
           Professor of Social Welfare Policy and Psychology,
                       University of Pennsylvania
                             March 30, 2006
    Chairman Allard, Ranking Member Reed, and distinguished Members of 
the Committee, the Committee is to be commended for the proposed bill 
reauthorizing of the McKinney-Vento Act. As you are aware, tremendous 
strides have been made in recent years, through both the appropriations 
process and HUD's competition in orienting the McKinney-Vento programs 
toward meeting the goal of reducing homelessness through the creation 
of permanent housing opportunities. Many thoughtful changes have been 
made to these programs which have collectively moved communities away 
from mere expansions in providing services to people in a state of 
homelessness, and toward a goal of reducing the number of people who 
experience homelessness. The bill under consideration is a significant 
milestone in meeting the nation's obligations to the poorest and 
neediest among us.
    I am particularly supportive of the bill's codifying into law the 
emphasis of using the McKinney-Vento programs to advance efforts to end 
chronic homelessness among single adults with disabilities. Research on 
the dynamics of homelessness among single adults has consistently shown 
that people experiencing chronic homelessness are costly users of 
emergency shelter, and costly users of acute care systems in health, 
public safety, and corrections. While adults who become chronically 
homeless may represent only 15 percent of adult shelter users over 
time, research indicates that they occupy more than half of the 
emergency shelter beds for adults in our cities, and account for a 
substantial majority of the people who live--and in some cases die--on 
our streets and in other public spaces.
    Research has further shown that investments in supportive housing 
targeted to this population in many cases can be fully offset by the 
reduced use of shelters, hospitals, emergency rooms, and jails. In the 
face of such evidence, it is difficult to justify a policy that spends 
so many resources essentially maintaining people in a state of 
homelessness, when those same resources can be leveraged for a solution 
to their plight. The bill's provision for setting aside 30 percent of 
the McKinney-Vento resources for permanent housing programs for people 
who are chronically homeless makes moral and economic sense in light of 
these data, and the Committee is to be commended for requiring that 
communities continue to target significant Federal resources for this 
purpose.
    I have just a couple of concerns with the nature of the targeting 
suggested in the bill. The bill should include a requirement that 
adults who are chronically homeless also have to have a disability in 
order to qualify for the set-aside resources. Previous Federal efforts 
in this area, including priorities established through the 
appropriations process and HUD's competition, have included a 
disability eligibility criterion for homeless adults. This targeting is 
based on the fact that the evidence of cost-effectiveness is strongest 
for people with disabilities, and because research suggests that nearly 
all adults who experience chronic homelessness also have a disability. 
Without this further criterion, the bill could unintentionally 
encourage lengthy shelter stays alone as a means of accessing this 
limited housing benefit.
    My second concern centers on the inclusion of ``chronically'' 
homeless families in the eligible population for permanent supportive 
housing funded through this legislation. I am not aware of a research 
literature on family homelessness that supports the designation of 
``chronicity'' among homeless families. Indeed, there are families who 
are homeless for long periods of time, and that is an issue deserving 
of redress. But it is not at all clear that long-term homelessness 
among families is best understood through a theoretical framework that 
was primarily intended to characterize a population of single adults 
who are so disabled and disenfranchised that--were it not for emergency 
shelter or supportive housing programs--they would live and even die on 
the streets. Without a doubt there are families among the homeless who 
have special needs, and who have disabled members, but segmenting this 
population from the larger population of homeless and near-homeless 
families, as is done in the proposed bill, could have unintended and 
long-term negative consequences, for both homeless families and the 
chronic homeless adult population.
    Research on family homelessness has not found that homeless 
families in general are significantly different from other poor 
families. This is not surprising, given that we now know that 
homelessness among families is fairly common--10 percent of poor 
children will experience homelessness each year, with a rate that is 
certainly much higher (perhaps twice as high) among families from 
disadvantage minorities, such as African-Americans. The extent of 
family homelessness, and its disruptive impact on children and their 
educations--irrespective of whether they are from a family with a 
disabled family member--cries out for a broader and more substantive 
policy solution than can be found within the very limited resource 
represented by the 30 percent set-aside of McKinney-Vento spending.
    Research has found that homeless families nearly universally 
respond positively to the receipt of rental assistance. Despite the 
many challenges a given family may face, nearly all homeless families 
end their homelessness, and do not recur into homelessness with the 
support of rental assistance. Current research in which I am engaged 
indicates that long-stay families reside in shelters for an average of 
9 months, at a cost of approximately $22,000 per family in 
Philadelphia. The same resource that provides 9 months in a shelter 
could provide those same families with the equivalent of 3 years of 
Federal housing assistance through the Section 8 program. Even the 
majority of families who's average stay in shelters is less than 2 
months consume nearly $4,000 in emergency shelter resources, resources 
that could be much better spent providing families with an expedited 
exit out of homelessness and into housing.
    In many small and even quite substantial program and policy 
experiments around the country, communities are exploring the value of 
such ``Housing First'' programs as an alternative to shelter among 
homeless families (as well as singles). These programs embody the 
principle that no family should be chronically homeless, and, indeed, 
no family should be homeless for more than a brief period of time (that 
is 30 days). To the extent that this Committee can do so, it should 
seek to encourage communities to explore how they can use these current 
resources, as well as their TANF programs and other Federal and local 
resources, to relocate families presenting as homeless as soon as 
possible, either through emergency relocation grants, or transitional 
rental assistance.
    The subsegment of families who need additional support services to 
maintain their housing, could and should receive those support services 
from mainstream child welfare and behavioral health systems. To the 
extent that permanent supportive housing is identified as necessary to 
prevent recurrent or long-term homelessness among some families, 
communities should be encouraged to convert their existing transitional 
housing programs--most of which are currently not targeted to families 
with special needs--to this purpose. In their current untargeted form, 
transitional housing programs have not provided a demonstrated benefit 
associated with their lengthy stays and high costs. In many 
communities, those units represent a significant resource that could be 
put to this purpose. And for those families in need of more sustained 
rental assistance without services, it is imperative that our Federal 
housing programs expand to meet that need.
    The 30 percent set aside is not going to be sufficient for 
accomplishing any of these goals. Moreover, without any strict limits 
on the use of this set aside for families, we may well undermine the 
primary consensus principle that this legislation seeks to codify--the 
reduction of chronic homelessness among single adults through the 
targeting of permanent supportive housing resources.
    The proposed bill also makes some significant progress in codifying 
into law some mechanisms for accountability that had been lacking in 
previous legislation for homeless programs. The provisions for 
supporting Homeless Services Management Information Systems, or HMIS, 
promises to give local communities, as well as States and the Federal 
Government, increased information to make informed policy decisions. 
Sound data collection can yield important information for governments 
and other planning bodies as they attempt to steer their systems toward 
reducing homelessness, either through housing placement or prevention.
    As the bill acknowledges, in addition to ending chronic 
homelessness, preventing future homelessness is going to be a critical 
objective to achieving the goal of reduced homelessness. Research 
suggests that as many as half of the single adults entering public 
shelters have recently exited other public systems of care. The HMIS 
data can be used to hold these mainstream systems accountable for the 
number of people they are sending to homelessness, and who in turn get 
sent back to these institutions. As long as we operate without data, 
this revolving door is invisible to these institutions, who choose to 
recognize the problem only when it appears inside their corridors. This 
is true whether it is acute hospitalization, detoxification, or 
correctional systems. HMIS can and should hold a mirror to these 
systems so that they can measure and reduce the traffic through these 
revolving doors. Doing so will require that local and State governments 
use their data effectively. The McKinney-Vento legislation could 
encourage States and localities to engage in systematic data analysis 
to identify how institutional discharges are contributing to 
homelessness, and, in turn, resulting in further reinstitutionalization 
and homelessness.
    In further support of such collaborations, I encourage the bill's 
support of the 10-year plans to end homelessness that have become 
commonplace around the country. Many of these plans are the result of 
new and potentially powerful collaborations among local and State 
governments, as well as service providers and less traditional 
stakeholders in these communities. These partnerships are essential to 
advancing a local agenda, and for leveraging the multiagency and 
multisectoral resources that will be necessary to develop and support 
housing, as well as programs for prevention and diversion from shelter. 
These partnerships are a reflection of the collaboration that has also 
been embodied in the U.S. Interagency Council on Homelessness, which 
has brought together many Federal partners for this purpose and brought 
new resources from other Federal programs to this population. Indeed, 
it is to the credit of the U.S. Interagency Council on Homelessness 
that the current national conversation has changed, and has now focused 
a variety of agencies at all levels of government on the objective of 
reducing and ultimately ending homelessness in our country.
    If the bill could learn from our previous experience with the 
Continuum of Care, it would be to assure that local governments have a 
majority position in the local planning boards called for in the 
legislation. Local governments control most of the policy levers that 
are required to develop and support housing, and to deliver social 
services and prevention. Only government has the legal authority and 
the public accountability that is necessary to achieve public aims. 
Therefore, local governments should be assured through their 
representation on local planning boards that their efforts can work in 
a common direction with the intended use of Federal and State 
resources.
    Much progress has been made on behalf of people who are homeless or 
threatened with homelessness. However, the problem remains a stubborn 
fixture in our communities. Federal resources can and should help in 
redirecting homelessness policies away from maintaining or even 
enhancing a makeshift private welfare system. Instead, our goal should 
be to strengthen the capacity of our social welfare system to protect 
people from homelessness in the first instance, and to prevent 
unnecessarily long shelter stays in the second. Chronic street 
homelessness should be addressed directly with housing programs that 
provide a solution to homelessness. This bill, properly modified, can 
make substantial progress in committing our Nation to these goals, and 
in pushing us even further in expanding access to housing and services 
that will truly prevent homelessness and away from the 
institutionalization of this unacceptable and unnecessary social ill.
    Thank you. I look forward to answering any questions you may have.
        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY 
                      FROM ROY A. BERNARDI

     In your testimony, you stated that, while our bill (S. 
1801) and the proposed HUD bill are similar, the bills differ 
in some respects. Please specify provisions in the HUD bill and 
provisions in S. 1801 that support your assertion that the HUD 
bill provides the following:

Q.1.a. A greater focus on chronic homelessness;

A.1.a. The Administration's bill would continue to define 
chronic homelessness to include disabled individuals who are 
often literally living on the streets. The Administration's 
bill, unlike S. 1801, would not expand the definition of 
chronic homelessness by including disabled families with 
children, most of whom are housed in shelters. Given limited 
resources, HUD wants to help ensure those who literally have no 
roof over their heads can access housing.

Q.1.b. Greater flexibility for the kinds of services needed to 
solve homelessness;

A.1.b. The Administration's bill permits funding of supportive 
services and does not include the 3-year phase out provisions 
that are outlined in S. 1801. Under the Administration's bill, 
communities are afforded the opportunity to fund the supportive 
services that are needed in their specific communities. This 
concept allows for local decisionmaking and greater flexibility 
by communities.

Q.1.c. Greater flexibility in using program funds to prevent 
homelessness (particularly in light of the bonus funding under 
the Samaritan Initiative); and

A.1.c. S. 1801 and the Administration's bill both address 
prevention; however, the Administration's bill provides more 
flexibility because it would allow up to 10 percent of program 
funds to be spent on prevention activities and S. 1801 allows 
up to 5 percent.

Q.1.d. Better targets its permanent housing resources for the 
disabled.

A.1.d. The Administration's bill would continue to target 
housing resources to disabled individuals and families. S. 1801 
would allow these scarce resources to also and for the first 
time be accessed by nondisabled families.

Q.2. The Administration's bill and S. 1801 would consolidate 
several competitive grant programs in order to maximize the 
impact of Federal dollars by eliminating duplication, reducing 
administrative burdens and the accompanying costs, and 
maximizing flexibility. As each program is targeted to a 
specific need, how do we best ensure that none of the target 
populations' needs is overwhelmed by the others?

A.2. The Administration's bill and S. 1801 allow communities to 
assess their various local needs and then decide which projects 
to fund. This will help ensure that each community will be able 
to address their respective needs.

        RESPONSE TO A WRITTEN QUESTION OF SENATOR REED 
                     FROM PHILIP F. MANGANO

Q.1. Among the community of homelessness assistance providers, 
some have raised concerns about the provision that allows HUD 
to phase out certain services, like healthcare, over a 3-year 
period, with responsibility for these services going to other 
agencies. Others argue that the transfer of responsibility for 
these services to other agencies is necessary to make the best 
use of resources available to combat homelessness. What steps 
will be necessary, both at the Federal and the local level, to 
facilitate this transition?

A.1. The Administration's proposal (H.R. 5041) to consolidate 
its HUD homeless assistance programs and to codify the 
Continuum of Care concept would not phase out supportive 
services. The Administration's proposal would continue to 
provide communities with maximum local flexibility to confront 
the local housing and service needs of homeless persons. The 
referenced phase-out provision is contained in S. 1801.

        RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY 
                     FROM DENNIS P. CULHANE

Q.1. Among the community of homelessness assistance providers, 
some have raised concerns. What steps will be necessary, both 
at the Federal and the local level, to facilitate this 
transition? Would S. 1801 strengthen or weaken the ability of 
community to provide supportive services to the homeless?

A.1. At the Federal level, the Heath Care for the Homeless 
(HCFH) program should be directed to provide health services in 
place of those that will be defunded under the HUD program. 
Ideally, HCFH will be provided with the additional funds to do 
so. Alternatively, local providers should access local health 
departments and/or Medicaid and/or Medicaid HMO's to provide 
clinical services in place of the defunded services.
    S. 1801 will require communities to find alternative 
sources of funding for some supportive services, but it will 
also continue many of the supportive services that HUD has 
determined are not likely to be provided by other public 
agencies (that is case management). This strategy makes sense 
from the perspective of maximizing the utility of HUD's 
resources. If communities do not identify alternative sources 
of funding for the defunded services, this will results in 
fewer services at those sites.

Q.2. As you know, some controversy has surrounded the 
definition of homelessness. What is your impression of the 
definition of homelessness included in our bill?

A.2. My opinion is that the definition of homelessness in S. 
1801 is sufficient. Efforts to broaden the definition beyond 
literal homelessness could have unintended negative 
consequences. First, people who are not literally homeless and 
who are ill-housed--a group that is far larger than the literal 
homeless--could consume many of the resources intended for the 
literal homeless, to their detriment. Second, from a targeting 
and accountability perspective, our ability to measure 
homelessness and the impact of targeted programs on reducing 
homelessness would be greatly compromised, as the broader 
population of poorly housed persons, including those doubled 
up, is very difficult to measure. Finally, I would note that 
there is some variability in Federal definitions that seems to 
fit the specific intent of those various Federal programs, and 
that variability makes sense.

Q.3. In balancing the needs of the chronically homeless 
population and the needs of those who are temporarily homeless, 
how could we best address the goals of ending chronic 
homelessness, while addressing the needs of the temporarily 
homeless?

A.3. The temporary homeless should continue to have access to 
emergency assistance, in the form of emergency shelters. 
However, the temporarily homeless would also benefit from a 
broader array of emergency assistance than shelter alone. I 
would encourage the Committee to consider ways in which it can 
support emergency relocation grants and other rehousing 
strategies that would expedite persons' exits from 
homelessness.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
